<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY: AN OVERVIEW OF THE PRESIDENT'S PROPOSAL</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  THE DEPARTMENT OF HOMELAND SECURITY: AN OVERVIEW OF THE PRESIDENT'S 
                                PROPOSAL
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2002

                               __________

                           Serial No. 107-87

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform






                       U. S. GOVERNMENT PRINTING OFFICE
81-325                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 20, 2002....................................     1
Statement of:
    Ridge, Tom, Director, Office of Homeland Security............    85
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     4
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    42
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    74
    Duncan, Hon. John J., Jr., a Representative in Congress from 
      the State of Tennessee, prepared statement of..............    80
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Article entitled, ``Buck-Passing Delayed EPA In 9/11 
          Cleanup''..............................................   124
        Prepared statement of....................................    62
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................    50
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    56
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, prepared statement of.......................    46
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................    72
    Ridge, Tom, Director, Office of Homeland Security, prepared 
      statement of...............................................    91
    Schrock, Edward L., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    18
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     9
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............    23
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................   134
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    66
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    13
    Weldon, Hon. Dave, a Representative in Congress from the 
      State of Florida, prepared statement of....................    36


  THE DEPARTMENT OF HOMELAND SECURITY: AN OVERVIEW OF THE PRESIDENT'S 
                                PROPOSAL

                              ----------                              


                        THURSDAY, JUNE 20, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Barr, Gilman, Morella, 
Shays, Horn, Thomas M. Davis of Virginia, Souder, LaTourette, 
Miller, Ose, Jo Ann Davis of Virginia, Platts, Weldon, Putnam, 
Schrock, Duncan, Sullivan, Waxman, Lantos, Mink, Sanders, 
Maloney, Norton, Cummings, Kucinich, Davis of Illinois, 
Tierney, Turner, Allen, Schakowsky, Clay, Watson, and Lynch.
    Staff present: Kevin Binger, staff director; Daniel R. 
Moll, deputy staff director; James C. Wilson, chief counsel; 
David A. Kass, deputy chief counsel; Marc Chretien, senior 
counsel; Chad Bungard, Pablo Carrillo, Hilary Funk, Randall 
Kaplan, and Jennifer Hall, counsels; Caroline Katzin, Kevin 
Long, and Gil Maklin, professional staff members; Blain 
Rethmeier, communications director; Allyson Blandford, staff 
assistant; Robert A. Briggs, chief clerk; Robin Butler, office 
manager, Elizabeth Crane, deputy communications director; 
Joshua E. Gillespie, deputy chief clerk; Nicholis Mutton, 
assistant to chief counsel; Leneal Scott, computer systems 
manager, Corinne Zaccagnini, systems administrator; Phil 
Schiliro, minority staff director; Phil Barnett, minority chief 
counsel; Kate Anderson, Michelle Ash, Tony Haywood, and David 
Rapallo, minority counsels; Karen Lightfoot, minority senior 
policy advisor; Mark Stephenson and Tania Shand, minority 
professional staff members; Ellen Rayner, minority chief clerk; 
and Earley Green, minority assistant clerk.
    Mr. Burton. The committee will come to order. Today we are 
meeting to begin considering the President's proposal to create 
a Homeland Security Department. And Governor Tom Ridge, my good 
friend, is here to testify, commonly known as Landslide.
    I am very glad that he is here to explain the President's 
plan and to answer our questions. For the last couple of 
months, a lot of questions have been asked about the events 
leading up to September 11th. Did the FBI and the CIA fail to 
coordinate, and many of us have questions about that. Did the 
FBI respond as aggressively as they should have when leads were 
developed? Did the INS make mistakes?
    These are very important questions. We ought to get 
answers. It is important to learn from the mistakes that were 
made in the past so we can do better in the future. And that is 
the value of oversight, congressional oversight is absolutely 
necessary. But it is also important for us to look forward. We 
need to take the steps that are necessary to prevent another 
terrorist attack. The President has said very clearly that we 
need to have one cabinet level department whose primary mission 
is to protect the United States from terrorist attack; a 
Defense Department for the United States, if you will.
    Congress is going to act on the President's proposal and I 
believe will do it in a bipartisan way, that is very important. 
I support the President's plan. I support the creation of a 
homeland security department. I signed on as an original co-
sponsor of the bill. I want to work with the President, Mr. 
Ridge and all of my colleagues on the Government Reform 
Committee to get this bill passed, and we will get the job 
done.
    I think that this committee is in a good position to take 
on this challenge. First, it is our jurisdiction. This 
committee is responsible for executive branch reorganizations. 
Second, and more importantly, we have the experience. We have a 
subcommittee, very ably chaired by Mr. Shays, and Mr. Shays, we 
want to thank you for all of the hearings you have had in the 
past that deal with national security.
    And he has held more than two dozen hearings on actually 
this issue. Are we organized to defend against terrorist 
attacks? Are we organized to recover from them? This 
subcommittee has been looking at these issues for more than 2 
years. We have seven subcommittees that oversee every facet of 
the government. Almost every one of these subcommittees have 
held hearings this year looking into different aspects of the 
homeland security puzzle.
    Last fall, at the full committee, we heard Benjamin 
Netanyahu, the former prime minister of Israel talk about how 
they dealt with terrorism in that country, and what we need to 
do here in the United States. We heard from in General Zinni 
who was asked by the President to be his special envoy to the 
Middle East. So we have the experience.
    One thing is clear. If we are going to do this, it has to 
be bipartisan. We have to work together, Republicans and 
Democrats. We have got to work with the other committees of the 
House and we have got to work with the leadership. After 
September 11th, this Congress rallied behind the President. We 
worked together to do what was necessary in that crisis. We can 
be all proud of that. If we all work together over the next 
month, we can get the same kind of results.
    And we have got a lot of work to do. And we don't have a 
lot of time to do it. We just received the bill 2 days ago. I 
think all of the Members here have questions about different 
aspects of the bill. Why were some agencies included? Why were 
other agencies left out? That is why I am very pleased that 
Governor Ridge is here this afternoon so he can start answering 
these questions and we can start getting answers.
    In his message to Congress, the President said, ``the 
threat of terrorism is a permanent condition.'' It is not going 
to go away, and he is right. This problem is not going to go 
away. Terrorists from around the world are going to keep trying 
to strike us where we are weak. When the stakes are this high, 
we can't have the responsibility for homeland security spread 
out over 100 different agencies. That is a big problem. We need 
to have one Federal agency, one cabinet level officer whose 
primary mission is homeland defense.
    That is why the President made this proposal. That is why 
we need to work together with him to get it passed. And I am 
going to ask all of my members here on the committee to limit 
their opening statements to 3 minutes or less. If Members would 
be willing to submit their statements for the record, that 
would even be better. We have a lot of questions for Governor 
Ridge and I want us to have as much time as possible to ask 
those questions. I tried to lead by example by keeping my 
usually long statement short.
    So I hope everyone will do the same.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.001
    
    [GRAPHIC] [TIFF OMITTED] 81325.002
    
    Mr. Burton. With that, Mr. Waxman is not yet here, but his 
good friend and my good friend, Mr. Lantos, is here. We will 
start with him. Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman. And I am 
glad to welcome our good friend, Tom Ridge. I want to commend 
the President for selecting you for your current position and 
wish you the very best in your future position.
    No one could do the job better than you, Tom. We are all 
proud of you. Following September 11, phase 1, the immediate 
task of giving the President all of the powers that he needs to 
conduct the war against global terrorism was the responsibility 
legislatively of the Internal Relations Committee. The chairman 
of that committee, Henry Hyde, and I as ranking member, managed 
that legislation in a 9\1/2\-hour marathon session. The session 
wasn't so long because the issue was controversial, it was long 
because every member chose to speak on the subject.
    As you remember, we passed it with one dissenting vote. All 
Republicans and all but one Democrat voted to give the 
President all of the powers to conduct the war on global 
terrorism.
    This legislation and your new department is the second 
phase. Now, we have had some time to look at the organizational 
structures that will be required to carry on this vote. If the 
phrase ``mission creep'' has any meaning, it is your operation. 
You currently have 100 employees, and you will have, I 
understand, about 170,000, which I think deserves a record in 
the Guinness Book as the fastest growing entity in the Federal 
Government.
    And let the record show it happened under Republican 
administration.
    You will note, Tom, that you will have the same bipartisan 
support wall to wall that the President had with his initial 
proposal. We are dealing with the Nation's security. And we are 
all on the same side of this issue.
    Our concerns are not with the needs to establish this new 
department. Democrats have advocated it for a long time. But we 
are determined to do it right. Because if we don't do it right, 
all of us will suffer. I think it is important for the media 
and the administration to understand that those of us who will 
raise questions about particulars of the proposal do so in a 
spirit of patriotism, cooperation and friendship. There is no 
monopoly on wisdom in this body or in the government at large. 
And we Democrats will be making constructive and positive 
contributions to make your future department more effective and 
more functional.
    Let me just say that the State Department had a rather 
interesting test case, pilot study of how difficult it is, even 
in the same general arena to integrate different entities. In 
the recent past, as you know, we went through integrating the 
U.S. Information Agency, the Arms Control and Disarmament 
Agency and the State Department, all dealing with foreign 
policy. It was a horrendously complex undertaking, partly 
because the cultures of the three agencies were so different.
    You will be inheriting a tremendous array of agencies with 
profoundly different cultures. And one of the things we will be 
looking at is how we can smoothly do this. My own 
recommendation would be that long before the legislation 
passes, there be some interagency cooperation so people 
understand the other agencies that they will be dealing with.
    Now, one item will be nonnegotiable on the Democratic side. 
And that is, the job security of every single Federal employee 
in all of these agencies. And I strongly urge you and the 
President not to debate this. Because, should you choose to do 
so, we will simply not cooperate. So I would be grateful if, in 
your opening statement, you would indicate what your position 
is on job security for all of the Federal employees in the 
various departments and agencies which will become part of your 
department.
    Finally, let me just suggest that you have our profound 
goodwill. You have demonstrated with your own personal career a 
degree of commitment to public service and patriotism that we 
all appreciate. And we on the Democratic side look forward to 
working with you. Thank you Mr. Chairman.
    Mr. Burton. Thank you, Mr. Lantos.
    And now I would like to introduce Chris Shays, the chairman 
of the Subcommittee on National Security, who has done yeoman's 
service in working on this issue. Mr. Shays, you are 
recognized.
    Mr. Shays. Thank you, Mr. Chairman. Mr. Chairman, thank you 
for holding these hearings. I have a terrific committee, both 
Republicans and Democrats. Mr. Ridge, thank you for being here.
    In the course of the 28 hearings on global terrorism, our 
subcommittee has traveled the twisted bureaucratic byways and 
dead-end currents of our current homeland security structure. 
We saw duplication in research programs and a proliferation of 
narrowly focused counterterrorism efforts. We heard testimony 
on a crippling lack of coordination between more than 100 
Federal departments, agencies, offices, task forces, steering 
committees and working groups attempting to protect America's 
people and property from catastrophic harm. And we learned this 
hard fact: The menace of global terrorism respects no moral, 
legal or political boundaries. Terrorism cuts across cold war 
jurisdictional stovepipes and turf boundaries as coldly and as 
dangerously as a commercial aircraft cuts through a building.
    In another age, in the face of another mortal challenge to 
our serenity and sovereignty, President Abraham Lincoln advised 
Congress, ``The dogmas of the quiet past are inadequate to the 
stormy present. The occasion is piled high with difficulty and 
we must rise with the occasion. As our case is new so we must 
think anew, and act anew. We must disenthrall ourselves, and 
then we shall save our country.''
    At this moment in history, saving our country requires bold 
action to reshape and refocus instruments of government's most 
fundamental responsibility, defense of life and liberty. The 
President proposed that bold action building on the work of 
three national commissions and the work of thoughtful 
legislators on both sides of the aisle and in both Chambers.
    The President asked us to establish a department of 
homeland security with sufficient reach, strength, agility and 
efficiency to thwart any terrorist network. The scope of the 
administration's proposal reflects and honors the hard lessons 
learned at the World Trade Center, at the Pentagon, and in a 
field outside Shanksville, PA, and the caves of Afghanistan. It 
challenges us to think anew and act anew. Recent news reports 
should chasten anyone attempting to indulge the old habits of 
division and delay.
    That we captured a terrorist suspected of plotting to 
detonate a radiological device should sound an alarm. We are in 
a race against the terrorists who seek to use weapons of mass 
destruction against us. Each day, each hour, they get closer.
    There is time for serious discussion and debate. There is 
no time for dilatory tactics or purely theoretical musings on 
the unintended consequence of prompt action. The consequences 
of inaction are intolerable. The President's proposal is 
bipartisan, it is bicameral. And I agree with the distinguished 
house minority leader, it can and should be done by September 
11th.
    Mindful of the vigilance and sacrifice upon which we build, 
let the process to restructure our homeland defense proceed 
with the urgency demanded by the challenges before us.
    I would just say this one last point. I know this bill 
isn't perfect. I know this bill needs some work. But together 
Republicans and Democrats, we can work our will on this 
legislation and give the President an excellent bill. And thank 
you, Tom Ridge and your staff, for working so hard to get this 
to us after the President's announcement so recently.
    Mr. Burton. Thank you, Mr. Shays.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.003
    
    [GRAPHIC] [TIFF OMITTED] 81325.004
    
    Mr. Burton. We will recognize Members in order of their 
arrival, but the one exception will be Mr. Waxman, who is the 
ranking minority member.
    Mr. Waxman. Thank you very much, Mr. Chairman. I thank you 
for recognizing me. I apologize I wasn't here when the meeting 
started, but there is another mark-up going on on the 
prescription drug benefit in the Commerce Committee. Today's 
hearing addresses how to organize our government to fight 
terrorism. This is an important subject. Our government can do 
a better job protecting against terrorism, and reorganization 
can help.
    I particularly want to welcome Governor Ridge to the 
hearing. I commend him and the President for preparing a 
blueprint of reorganization. This is not a partisan issue but a 
national one. Leadership from the White House is essential. But 
as we embark on this reorganization effort, it is important 
that we keep our priorities in perspective. Fundamentally, 
reorganization is a bureaucratic exercise. The plan before us 
addresses organizational flow charts. The creation of five new 
under secretaries, and 16 new assistant secretaries and the 
application of Civil Service and procurement laws.
    As a professor of management at Columbia University 
recently remarked, to think that a structural solution can 
bring about a major improvement in performance is a major 
mistake. The reorganization plan doesn't address the most 
pressing security questions that we confront. We have to stop 
the spread of biological weapons. But this reorganization 
doesn't contain a plan for international inspections of suspect 
facilities or for greater resources for tracking biological 
agents globally.
    We have to improve airline security, and enhance the poor 
performance of the new transportation security administration. 
But this reorganization doesn't contain any plans for fixing 
the flaws in the new transportation security administration. 
Instead it simply moves this agency into a new bureaucracy.
    And we have to improve the performance and coordination of 
our intelligence agencies. But it isn't clear how adding 
another intelligence agency in a new bureaucracy helps fix 
this. For example, there is nothing in this bill that would 
ensure that the National Security Agency will do a better job 
translating warnings of terrorists threats.
    While I am not opposed to reorganization, in fact I am 
convinced that there are steps that we can take that will make 
sense and improve the functioning of our government, but it has 
to be done in a way that minimizes the disruption and 
bureaucracy and maximizes our ability to confront the terrorism 
threat that we face.
    There is an old adage that those who don't remember the 
past are condemned to repeat it. But we may do exactly this in 
our headlong rush to create a new department. The history of 
past reorganizations is not reassuring. The Department of 
Energy was created 25 years ago, and it is still dysfunctional. 
The Department of Transportation was created 35 years ago, yet 
as the National Journal reported this week, it still struggles 
to make its components cooperate, share information and 
generally play nice.
    The model that we are supposed to be emulating is a 
creation of the Department of Defense 50 years ago. But, for 
over 35 years, the Defense Department was riven with strife. In 
1983, when President Reagan ordered the invasion of Grenada, 
the Army and the Marines had to split the island in half 
because they couldn't figure out how to cooperate. It was not 
until the Goldwater-Nichols Act of 1986 that the problems 
created in the 1947 reorganization were finally addressed.
    To avoid the mistakes of the past we have to do a careful 
job. But the process we are following is not encouraging. The 
reorganization plan was released before the administration 
completed its work on the national strategy to provide homeland 
security. So it is impossible for us to assess how this 
reorganization will contribute to the national strategy. 
Moreover, the White House proposal we are considering today was 
put together by a handful of political appointees working in 
secret.
    The agencies with expertise were excluded from the process. 
In fact, there was so little communication between the White 
House and the agencies, that one important agency had to call 
us yesterday to find out how it fared under the plan. And here 
in Congress, we are operating under an expedited schedule that 
is likely to make thoughtful deliberation difficult.
    If we were following regular procedure, our committee would 
be the lead. And we could ensure that the complex issues raised 
by the proposed reorganization are carefully explored, but we 
have been stripped of that role by the House leadership. These 
days there seems to be a lot of bipartisan self-congratulation 
going on, which makes us all feel good, and we want to work 
together on a bipartisan basis, because we all feel strongly 
that this Nation is at risk and our people are under terrorist 
threat.
    But the time for congratulations and elaborate ceremonies 
will come when we have captured Osama bin Laden and the other 
Al Qaeda leaders, when we have arrested the criminal or 
criminals who launched the anthrax attacks, and when Americans 
from California to New York go to bed at night knowing that our 
intelligence agencies are in the best possible position to 
thwart terrorism. And it will be when we have figured out how 
to bring peace to the Middle East and stability in Afghanistan.
    We have a long way to reach these goals. It is our job to 
ensure that the new bureaucracy we are creating makes a 
positive and not a negative contribution to this effort. Mr. 
Chairman, I want to pledge to you my cooperation, to Governor 
Ridge as well, to work with you to accomplish these goals that 
we want to see come out of any reorganization. I thank you for 
yielding me this time.
    Mr. Burton. Thank you, Mr. Waxman. We look forward to 
working with you as well.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.005
    
    [GRAPHIC] [TIFF OMITTED] 81325.006
    
    Mr. Burton. Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. As you know, we have a 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations. And we have been holding a series 
of field hearings to examine how effectively the Federal 
Government is in assisting and working with State and local 
governments in preparing for potential terrorist attacks.
    Specifically, the subcommittee has focused on biological, 
chemical, nuclear agents. We have especially been interested in 
taking to the firefighters and police officers and medical 
personnel and health personnel those duties that place them in 
the front line when such an attack occurs. We started in 
Nashville, then Phoenix, Albuquerque, Los Angeles, San 
Francisco. In the next 2 weeks, we will have Milwaukee, 
Chicago, Omaha, Wichita, Denver.
    These hearings are the result of obviously what occurred on 
September 11th. We learned that the public health system is 
woefully unprepared to handle the massive numbers of injuries 
that could result from such an attack. We also learned from the 
police chiefs of Baltimore, Philadelphia and right here in the 
Nation's Capital that the Federal Government is not providing 
the type of intelligence information they need to do their 
jobs. In part, that problem stems from the chief's lack of 
security clearances.
    I have introduced H.R. 3483 and given it to the chairman of 
the Judiciary Committee. And hopefully, we will get that one 
way or the other, where there is intergovernmental cooperation. 
And you as a Governor are a good example to have those 
feelings.
    The Homeland Security Act of 2002 specifically addressed 
many concerns that have been raised during our field hearings 
such as the need for interoperable communications. When we were 
in Nashville, the civilian helicopters that bring things, and 
people and injured people to the fine hospitals they have 
there, and the military, they are all on different frequency 
and they can't talk to each other. So that is one.
    And I think looking at the competition of intelligence is 
particularly important. CIA, NSA, national reconnaissance, and 
so forth. It seems to me you want competition, because you want 
to make sure that nothing is under the desk, that it is being 
done. And the people in the State and local governments they 
know have generally, most Governors have a little FEMA modeled 
after the very able people in the national FEMA. And we need to 
give them the information they need in intelligence.
    And, Mr. Chairman, we can go through other things, but 
let's stop right there.
    Mr. Burton. Thank you very much, Mr. Horn. Appreciate your 
sticking to the 3 minutes very nice.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. I also 
want to thank Governor Ridge for his appearance. Governor, good 
to see you. Our committee, which has the primary jurisdiction 
over those proposals, stands ready to work with the Bush 
administration in any way we can to make sure that our 
government is more prepared to deal with terrorist threats. We 
will consider the White House proposal to make the Office of 
Homeland Security a cabinet level agency fairly, 
comprehensively, and expeditiously as possible. But in order to 
do so, we are going to need reciprocal cooperation from the 
administration.
    In October, committee leaders wrote a bipartisan letter to 
President Bush based on our committee's work on the past on 
this issue. We urged the comprehensive threat and risk 
assessment of the Nation's vulnerabilities. Only by first 
conducting such an assessment we asserted could our government 
develop sound priorities and craft a coherent national 
strategy.
    To this day, the administration has conducted no such 
assessment. When the President created Governor Ridge's 
position, the Executive order he issued directed the Governor 
to develop a national strategy. This strategy was supposed to 
guide the Nation in organizing itself to counter the various 
threats we face. The strategy was originally due in June, but 
now we are told it may not arrive until July or beyond.
    It makes much greater sense for Governor Ridge to first 
complete his national strategy to ensure that this new 
department of homeland security fits within its goals. If the 
new department is a central component of a national strategy as 
the White House now asserts, wouldn't it make sense to at least 
propose the new department as part of that strategy.
    The White House came out with the reorganization first and 
said we will do the strategy later. The underlying flaw with 
creating a new organization such as a cabinet level homeland 
security agency without having conducted a comprehensive threat 
and risk assessment is that it prevents resources from being 
allocated in a way that reflects priorities.
    I want to say that we all want to be assured of the 
security of our Nation. We want to be do everything that we can 
to calm the fears of Americans, to protect our Nation and its 
people while ensuring that the Constitutional protections of 
our 226-year history are secured.
    I hope that the conduct of these proceedings will include a 
discussion of causality as well as casualties, a discussion of 
the prevention through peaceful consensus building as much as a 
reaction of force to the failures of diplomacy.
    In the past 4 months, we have heard about one alert after 
another, including a full scale alert when the Patriot Bill was 
brought to the floor of the House right after that. We have 
heard about the problems with the FBI and the CIA and September 
11th, and then when that was being discussed in the Congress, 
we heard about the so-called dirty bomber alert. We still have 
questions that have not been resolved about anthrax, which 
affected this Capital in a way that nothing else has.
    Biological weapons attack on this Nation. It is still a 
crisis of confidence, no matter what structural changes we 
make, until we get answers on what happened with that.
    Finally, I want to say, Governor, on this July 4th, there 
will be people all over the country putting their hands over 
their hearts singing the Star Spangled Banner. It is worth 
remembering those words from Francis Scott Key when he wrote, 
``oh, say does that star spangled banner still wave, over the 
land of the free and the home of the brave.''
    In his work, Francis Scott Key linked freedom and bravery. 
We need to remember where we have come from as a Nation. That 
no matter the threats, that we will keep our freedoms by being 
brave. That is the American way, and that is our national 
anthem. Thank you.
    Mr. Burton. Thank you, Mr. Kucinich.
    Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman, and thank you, 
Governor Ridge, for being here today. I appreciate all of the 
hard work you have accomplished since assuming those awesome 
responsibilities. I also want to publicly thank the President 
for taking the lead and moving forward on creating the 
Department of Homeland Security.
    In the Second Congressional District of Virginia that I 
represent, the greatest security threat we face is an attack on 
our seaport. The characteristics that make Hampton Roads an 
ideal seaport, an ideal location and an efficient intermodal 
transportation system, also make this area a prime target.
    A ship sailing through Hampton Roads steams within a few 
hundred yards of the Norfolk Naval Base, home of the Atlantic 
fleet, the largest Naval base in the world, and Ft. Monroe, 
home of the U.S. Army Training and Doctrine Command. The 
detonation of ship-based weapon of mass destruction would have 
disastrous effects on our military and our economy.
    Under the current framework, the Coast Guard, the Customs 
Service, the Immigration and Naturalization Service and the 
Animal and Plant Health Inspection Service, all have some 
jurisdiction over ships coming into the port of Hampton Roads. 
These agencies have different, often limited powers to search 
and inspect ships and cargo and lack a formal process for 
sharing information with one another.
    In some cases, Federal laws even prevent the sharing of 
information between these Federal agencies. Those problems 
became clear at a workshop I held recently on port security. 
Putting those agencies under one umbrella will enable them to 
communicate more effectively and work together filling the 
security gaps that exist today.
    Also, the new homeland security plan will help goods get to 
market more efficiently. Under the current system, a ship and 
its containers are stopped and searched several times by 
different agencies. This system unnecessarily impedes the flow 
of commerce.
    I am confident that the President's proposal will ensure 
that security remains our top priority during the inspection of 
ships while also providing for a more efficient flow of goods 
to their ultimate destination through the reduction of 
duplication. I hope you will take a few minutes during your 
remarks today to address how the President's homeland security 
proposals will improve seaport security while ensuring the 
efficient flow of commerce.
    Again thank you for joining us today. You and the President 
are doing a great job under very difficult and unique 
circumstances. Thank you.
    Mr. Burton. Thank you, Mr. Schrock.
    [The prepared statement of Hon. Edward L. Schrock follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.007
    
    [GRAPHIC] [TIFF OMITTED] 81325.008
    
    Mr. Burton. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I would like to 
welcome the White House proposal to centralize responsibility 
for homeland defense in a single cabinet level department.
    Many of us would have preferred that this action take place 
quite some months ago. But I am pleased that the President has 
responded to longstanding bipartisan advice that the various 
Federal agencies responsible for homeland security be brought 
together in a new department of homeland security.
    I want to give a great deal of credit to my colleague, 
Chris Shays from Connecticut, who with his subcommittee, has 
been having hearings on this matter, I think some 19 or 20 of 
them before September 11th, dealing with every aspect of this 
and basically screaming into the wind.
    And I congratulate him on being out there. I think he has 
done, with his committee, a lot of the work that precedes and 
makes the groundwork for what we are now looking forward to 
doing. As we consider the President's proposal today, we do it 
in a spirit of cooperation. We offer to and expect it from the 
administration, so that the end product is not a bureaucratic 
reshuffling, rather have a fundamental change in the way that 
we address terrorist threats to our country.
    We in the Government Reform Committee whose job it is to 
identify the best practices and lessons learned in government 
operations have a special obligation to marshall our country's 
best ideas, resources and skills to coordinate our fight 
against terrorism. We need to do this for the families who lost 
loved ones on September 11th, and in the October anthrax 
attacks, for the American people whole expect us to protect 
them, and for our children so that future generations may grow 
up in a free and open society.
    A month ago, Director Ridge was here to brief us. I spoke 
with you then, Director Ridge, and I will say it to you again 
today. This administration must prepare that comprehensive 
threat assessment that was ordered by the President last 
October. The private sector has done it. Both Brookings and 
Rand have performed the post September 11th assessment. And the 
White House must as well.
    Otherwise, the American people have no practical context 
for the administration's reorganizational charts and dollar 
figures presented here today. I urge the administration to 
complete the comprehensive threat assessment, and if necessary, 
revise these charts and budget figures accordingly.
    Last week we were told that there would be no fiscal year 
2003 budget justification. That just simply is not credible. No 
small business owner ever changed names or address of personnel 
without some transitional cost. In fact, just last month, the 
House acted at the administration's request to bifurcate the 
INS.
    And in doing so, it passed a law calling for a transition 
with costs and a process extending to 2005. We must create this 
new department in an open and fiscally responsible manner, 
through an amended White House budget proposal.
    While we applaud the effort to consolidate resources, we do 
question certain choices. Three examples are intelligence, the 
Coast Guard and first responders.
    As to intelligence, many of my constituents are rightfully 
asking, why weren't the FBI and CIA included in the department? 
How will they interact? Without the top analysts, how will the 
new agency receive intelligence from the FBI and CIA? If the 
FBI and CIA were loathe to communicate before September 11th, 
and are now casting blame at one another as we investigate 
September 11th, what makes anyone think that they will 
communicate with a new untested agency and with State and local 
first responders?
    FBI whistleblower Coleen Rowley shared with the American 
people her bureaucratic horror story of having critical 
information that she passed vertically to superiors who 
stonewalled her efforts for FBI action, and chastised her for 
sharing it horizontally with the CIA.
    If she were to uncover similar information today, are we 
now to expect that Ms. Rowley would send that information to 
her superiors and to the CIA and to this new agency all at 
once? If not, in what order and under what circumstances? Who 
will be screening personal information about a suspect as the 
intelligence is being processed inter or intra agency?
    To whom is it sent? Up a stovepipe to the top and then over 
to a manager and then down another stovepipe to the line DHS 
agent or simultaneously out to a number of people? Who would 
control that? And if the FBI and CIA and DHS officials differed 
on the value of the information, who gets the veto power? When 
in all of these conversations would Ms. Rowley's suspicions 
make it to local law enforcement?
    The Coast Guard issue arises from the fishing families in 
my district who are quite concerned that moving the entire 
Coast Guard to the new agency will undermine two core elements 
of their mission, fisheries management and search and rescue. 
Why move the entire agency? If the administration proposes to 
change the mission of the agencies that are moving to the new 
department, what is the training budget and procedure for the 
employees? What is the priority? Fisheries management? Search 
and rescue? Or counterterrorism, and in what order?
    Where are the resources and what is the time line during 
which managers will communicate this to the line workers? These 
questions need the administration's answers.
    Third, no matter how the department is constituted, we must 
maintain the Federal partnership with the local first 
responders. All acts of terrorism are local, and each of our 
communities must be fully prepared for crisis response, and 
consequence management. Our local first responders need to know 
how they will receive intelligence communications from the 
proposed information analysis and infrastructure protection 
division and what resources they will have to help them act on 
this information in order to protect the American people.
    Last Monday I sent the President a letter cosigned by 70 
Members of Congress from across the country, seeking to fully 
enfranchise local first responders in the Department of 
Homeland Security by giving them credit for the $1.5 billion 
they already spent defending America after September 11th. The 
President's proposal contemplates a total of $3.5 billion in 
terrorism preparedness, but only if local communities put up a 
25 percent match for this Federal assistance. Many communities 
can't afford that match because of the enormous cost that they 
have already absorbed in overtime and added security since 
September 11th.
    So my colleagues and I ask that these communities be able 
to count what they have already spent on counterterrorism since 
September 11th as a soft match toward that 25 percent.
    Our letter to President Bush requested that he commit to a 
fast track disbursement of funds directly to local communities 
once the dollars have been appropriated. Initial briefings have 
indicated that Federal funding for local fire, police and other 
emergency operations would be funneled through State 
governments under the new system. That extra layer of politics 
and bureaucracy concerns me and many others who want our first 
line personnel to focus their energy and talents directly on 
effective community protection and emergency response.
    Indeed, such a proposal would undercut the Fire Act, the 
COPS Program and other effective partnerships, and we should 
not let this happen. In all of this talk about reorganization, 
care must be taken to ensure that all affected departments now 
engaged in aspects of security not be distracted by the demands 
of reorienting their missions, priorities and personnel.
    The temptation for personnel to become focused of turf and 
position protection highlights the risk of distraction form the 
moment's serious demands, and the plan must deal with those 
issues.
    Finally, as with all cabinet agencies, this new department 
will be expected to empower its work force, balance its books, 
and award resources to grantees and contractors on a fair and 
competitive basis so as to maximize effectiveness and minimize 
exposure to waste, fraud and abuse of taxpayer dollars.
    The American people deserve no less and, Mr. Director, we 
look forward to working with you to meet all of those concerns.
    Mr. Burton. Thank you, Mr. Tierney.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.009
    
    [GRAPHIC] [TIFF OMITTED] 81325.010
    
    [GRAPHIC] [TIFF OMITTED] 81325.011
    
    [GRAPHIC] [TIFF OMITTED] 81325.012
    
    [GRAPHIC] [TIFF OMITTED] 81325.013
    
    [GRAPHIC] [TIFF OMITTED] 81325.014
    
    [GRAPHIC] [TIFF OMITTED] 81325.015
    
    [GRAPHIC] [TIFF OMITTED] 81325.016
    
    [GRAPHIC] [TIFF OMITTED] 81325.017
    
    [GRAPHIC] [TIFF OMITTED] 81325.018
    
    Mr. Burton. Let me just say that we are going to be try as 
lenient as possible with everybody, because we know how 
important your statements are, but we really need to get to 
questions of Governor Ridge. And so if you could limit your 
statements to 3 minutes we really appreciate it.
    Mr. Tom Davis of Virginia. Mr. Chairman, I think it would 
be helpful to hold us to 3, because we have a lot of people, 
and the Governor has been sitting here already a long time.
    Mr. Burton. Well, I will do that. But I want everybody to 
know that I love you all, but we got to get through this thing. 
So Mr. Davis.
    Mr. Tom Davis of Virginia. Thank you. I will try to be 
brief. First of all, Governor Ridge, thank you for your 
service. Thank you for being here today. I think that the 
congressional input and assent in this process is very 
important. There is a lot of historical knowledge that exists 
in this branch of government and we hope to have a good dialog 
with you on that. I think that we can add some elements that 
hopefully will make this a better package, when it emerges.
    That being said, we have to remember it is ultimately up to 
the administration and the executive to administer and direct 
this new agency, and our trying to legislate an organizational 
structure that the administration isn't comfortable with or 
can't work with is not going to help, because ultimately, the 
executive branch is going to be accountable, it has to operate 
within a framework that is consistent with their mission, with 
their philosophy and with their culture.
    So we hope to be a part of that process. But I think we 
need to understand that at the end of the day, you need to 
administer this. We don't want to give you a framework that you 
can't operate of feel comfortable operating under. One other 
issue is, I think, clearly the Federal employee issue is an 
issue that we have to hit head on. Federal employees who 
currently enjoy a protected status in the Civil Service 
shouldn't lose that status in a mix where they could lose their 
job and jeopardize everything if they are unwilling to do that.
    For new hires, those kind of issues, a different issue 
arises. But this is clearly an issue that has been expressed by 
the other side. And I think from just a political perspective 
has to be addressed if this issue is going to clear the 
Congress. And I know you have given this some thought. I don't 
think we can hamstring your flexibility to govern, so we have 
to find that right balance. But again, thank you for being 
here. Look forward to working with you.
    Mr. Burton. Thank you, Mr. Davis.
    Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman. And thank you, Governor 
Ridge for appearing here and for all of your hard work these 
last few months. Homeland security is not a partisan issue. 
Every member of this committee, indeed every Member of Congress 
wants you to succeed and wants to get this reorganization 
effort right. We all share the common goal of improving the 
effectiveness of homeland security and emergency response 
operations that are currently disbursed among many agencies.
    I support the creation of a department of homeland 
security. I do have questions about some of the details, 
particularly about the relationship between the new proposed 
department and State and local governments. I am going to 
mention now just to make sure that I get them in. First, State 
and local governments need sufficient resources to plan for and 
implement the many additional responsibilities this ongoing 
national emergency has imposed upon their already strained 
budgets.
    Maine emergency planners and first responders tell me time 
and again of their need for more Federal aid as soon as 
possible. They say that Federal aid already appropriated is not 
getting released to States and municipalities fast enough. I 
worry in the natural upheaval that will come with this massive 
reorganization, the already lengthy process for distributing 
money to States and municipalities will get even more 
complicated and that the disbursal of these funds will take 
even more time.
    Second, I am concerned that some of the institutional and 
cultural barriers that have prevented the sharing of 
information horizontally among agencies of the Federal 
Government also prevents the effective sharing of information 
vertically between the Federal Government and State and local 
governments. The new department will need policies and 
structures that facilitate such vertical communication. State 
and local agencies and officials with homeland security 
responsibilities must promptly receive the intelligence data 
they need to perform their duties. This will require that we 
overcome both technical and bureaucratic cultural obstacles 
which permeate the current system.
    I look forward to working with you, Governor Ridge, and the 
rest of my colleagues on the committee to address these and 
other concerns so that we can create the best, most efficient 
department possible. We must do everything we can to get it 
right. This task is too important for us to fail. Thank you and 
welcome.
    Mr. Burton. Thank you.
    Dr. Weldon.
    Mr. Weldon. Thank you, Mr. Chairman. Mr. Chairman, this 
committee must examine very carefully the question of whether 
the Bureau of Consular Affairs which issues travel visas to 
foreigners should be transferred as a whole from the Department 
of State to the new Department of Homeland Security.
    Common sense tells us that the best way to protect 
Americans from foreign terrorists is to prevent terrorists from 
entering the United States in the first place. A strong visa 
issuance program is essential to achieve that objective. We are 
all too aware of the fact that 15 of the 19 September 11th 
terrorists had obtained ``appropriate'' visas. Even more 
incredible is the fact that three of these men received their 
visas via the Visa Express Program in Saudi Arabia from a 
travel agent. And indeed, that program is still ongoing today.
    Mr. Chairman, can the issuing of visas be a diplomatic 
function? It must be a security function with the proper 
scrutiny only a trained agent can apply. Diplomats are trained 
to be diplomatic. This isn't about speed of service with a 
smile. This is about close and careful examination of each and 
every visa applicant. And yet, Mr. Chairman, the President's 
proposal, I believe, takes a fragmented approach by 
transferring the authority to establish policy regarding the 
issuance of visas to the new security--or the new Secretary of 
Homeland Security, but leaves operational control with the 
State Department.
    Many experts have identified this fragmented approach as a 
weakness in the President's proposal. After all, isn't the 
purpose of the Homeland Security Department to unify the 
fragmented homeland defense infrastructure we currently have 
today? Last night the President spoke to this very issue. He 
said, ``there are over 100 different agencies that have 
something to do with homeland. And they are scattered 
everywhere which makes it very hard to align authority and 
responsibility.'' I could not agree with the President more.
    The President went on to give the examples of the Coast 
Guard and the Customs Services as agencies whose primary focus 
should now be homeland defense, and how it is no longer 
appropriate to keep them in Transportation and Treasury, 
respectfully, because those departments don't have homeland 
security as their primary mission.
    This certainly makes sense to me. Well, equally the Bureau 
of Consular Affairs must have homeland defense and the 
prevention of issuance of visas to terrorists as its No. 1 
priority. The best way to do that is to move that bureau into 
the Department of Homeland Security. The Secretary of Homeland 
Security cannot effectively control the visa process unless he 
or she also has complete operational control over the process 
and the work force of Consular Affairs, the literal front lines 
of our battle against terrorists entering our country.
    Mr. Chairman, our security begins abroad. I commend you for 
calling this hearing. And I am looking forward to the testimony 
of Governor Ridge.
    Mr. Burton. Thank you, Mr. Weldon, for sticking so close to 
the 3-minute rule.
    [The prepared statement of Hon. Dave Weldon follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.019
    
    Mr. Burton. Mr. Lynch.
    Mr. Lynch. Good afternoon. Thank you, Mr. Chairman. Mr. 
Chairman, at the outset I would like to commend yourself and 
Mr. Waxman and Mr. Shays for your leadership on this issue. 
Governor Ridge, I also appreciate your willingness to come here 
today and to work with this committee. Today's hearing gives us 
the first opportunity to review and hopefully strengthen the 
President's proposal for a new department of homeland security.
    As proposed, this new department's basic responsibility 
will be to fulfill a profound but very basic promise of our 
government. We should be recommended that in the first instance 
of establishing this Nation, in the Declaration of Independence 
itself, this Nation's founders set forth certain basic 
inalienable rights that should be guaranteed to its citizens.
    They also, in the second breath, described what they felt 
and described as the foundation of our government's obligation 
to the people in securing those basic rights, namely, the 
government's promise to provide for their security.
    Since September 11th, for all of us who are charged with 
that responsibility, and actually for all Americans, the rules 
of engagement have changed. We indeed are living in more 
dangerous times. As a people that prides itself on personal 
freedom in a country where civil liberties are the very 
currency of our daily lives, it is very difficult to accept 
that our enemies have targeted innocent civilians, children as 
well as senior citizens, as the objects of their hatred. So our 
task today and henceforth is to defend the defenseless.
    But we must do it in a way that preserves the noble ideals 
from which our Nation was born. I think the President's 
actions, by and large, have tried to address this new reality.
    However, I believe that the success of this department will 
be determined by its ability to gather information and to 
preempt attacks on our citizens. And that will require, of 
course, the structural and operational cooperation between the 
FBI, the CIA and this new agency. And that is a glaring flaw in 
this legislation as others have noted.
    Notwithstanding the President's proposal, homeland security 
will continue to labor under a disadvantage because of the 
institutional resistance within the bureaucracies of the FBI 
and the CIA.
    However, I also believe that in total, this is very, very 
important legislation, and an important first step to 
fulfilling our most basic responsibility to our citizens. I 
will leave the questions of cooperation and disclosure of the 
FBI and CIA to others. However, I must say that in earlier 
discussions with Secretary Rumsfeld, he did notice that, and he 
did remark that the most glaring vulnerability to the citizens 
in general existed in the delivery of the mail.
    And we have seen in the anthrax attacks that followed 
September 11th that there is no other agency in this country 
whose employees go to every single home in this country. And I 
am rather surprised to go through this entire bill and not see 
any mention of any coordination or defense mechanism that 
incorporates working with the U.S. Postal Service.
    And I look forward to working with you, Governor Ridge, on 
that matter. I would also like to say that as the Congressman 
responsible for representing the Port of Boston, that as well, 
that I am unclear that at this point in the legislation to 
uncover how exactly that defense operation will go forward.
    But, this is the very first step, and I understand there is 
a lot of work to be done. I want to just pledge to you, 
Governor, and to the members of this committee, that I am 
willing to dig in, roll up my sleeves and work with you. I 
think we all understand how important this is, because we all 
unquestionably understand the consequences to the American 
people if we fail. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Lynch.
    Mr. Sullivan.
    Mr. Sullivan. Thank you, Mr. Chairman. I would like to 
thank you, Governor Ridge. I know you are busy, and I 
appreciate all of the hard work you are doing. After the events 
of September 11th, it became clear that the threat of terrorism 
is a real and permanent problem, and we must find new ways to 
protect the citizens of this country from those who seek to 
attack and murder Americans.
    Today, there is no Federal agency that has homeland 
security as its primary mission. With over 100 different 
entities in our government that control some aspect of homeland 
security, the need to form a unified department is of the 
utmost importance. We need to make sure that the new department 
is the most efficient organizational structure possible, and 
that it has all of the resources it needs in order to keep the 
people of this country safe.
    Several questions need to be asked and answered before we 
can make the most effective decisions regarding the new agency. 
For instance, what is going to be the role of the FBI and the 
CIA within the context of the new framework? How will these 
departments communicate in order to share information? When can 
we expect the new department to begin its work? I look forward 
to hearing from you, Governor Ridge, and working with my 
colleagues to ensure that the new Department of Homeland 
Security is established in the most effective and expeditious 
way possible. Thank you.
    Mr. Burton. Thank you very much.
    Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. Welcome Governor 
Ridge. It is a pleasure to be able to talk with you finally in 
a public hearing. I appreciate that very much. There is 
unanimous agreement among Members of Congress that we must 
change the way that we conduct business, our business of 
national security in this country. As we begin the process of 
formally reviewing the President's proposal to create a 
department of homeland security, homeland defense, we have a 
duty to ask tough questions and demand satisfactory responses.
    A fundamental question each of us must continue to ask as 
we flesh out each detail of this new department is, will it 
make us safer? It is not a given that simply creating a new 
department of homeland defense will create that crucial 
intelligence and analysis which will make its way to those who 
need it most or whether the new agency will simply add another 
layer to the top of an already dense bureaucracy.
    So let me raise a couple of the concerns that I have. 
First, I am wondering how the administration can be so sure 
about a plan to improve security in this country, when a 
comprehensive threat assessment and a national strategy to 
address them, which was your primary mission to complete has 
not yet been completed.
    I don't believe we can move forward with absolute certainty 
in the wisdom of our actions without them. The President has 
suggested that we transfer several existing agencies into one. 
Among those agencies are those which provide critical 
nonsecurity-related functions. Some have raised concerns that 
these critical functions may not receive the attention that 
they deserve from a cabinet secretary whose primary charge is 
to protect the homeland.
    Moreover, some have questioned the wisdom of placing 
multiple and possibly competing missions within the same 
department. I am concerned, for example, of the service 
function of the Immigration and Naturalization Service. I 
represent an immigrant-rich district in which people who are 
here legally are embracing the promise of the American dream, 
want to contribute, and are already suffering under an 
inefficient and insensitive agency.
    I hope that this will improve rather than exacerbate the 
problem. The President's plan does not include necessary 
protections for the rights of Federal employees to organize, be 
represented by unions and bargain collectively. Relaxed 
procurement standards the President has put forth do not 
suggest that an adequate level of financial accountability will 
be instilled in the new department or that existing statutes 
governing procurement will be followed.
    And the attempt to exempt the new agency from requirements 
of the Freedom of Information and Federal Advisory Committee 
Acts are cause for concern for Members and the American public. 
We are talking about a new agency, a radical reorganization of 
the government, and a considerable amount of money. The public 
and the Congress should maintain their rightful oversight roles 
over this new agency. And attempts to limit those rights should 
immediately end.
    These are just a few of my many questions and concerns, and 
I look forward to Governor Ridge to a worthwhile discussion on 
this critically important subject. Thank you for your work.
    Mr. Burton. Mr. Souder.
    Mr. Souder. First, I would like to thank Chairman Burton 
for his leadership in making sure that this committee had the 
proper jurisdiction and consideration on this, and I want to 
support this, and your support of our subcommittee on criminal 
justice and drug policy, as we have worked to review the impact 
of both this proposal and overall homeland security needs on 
drug interdiction in Federal law enforcement.
    Some of the most prominent agencies involved in this 
reorganization are also among the most prominent agencies in 
drug interdiction. On Monday we held an extremely useful 
hearing in subcommittee to receive testimony from former Coast 
Guard Commandant Bob Kramek, former DEA Administrator, Donnie 
Marshall and a number of other former senior officials in the 
Treasury Department, the Customs Service and the Border Patrol.
    That testimony will shortly be available on the 
subcommittee's Web site and I encourage all members of the full 
committee, interested members of the public to review it and 
see the potential tradeoffs we have here and how to work 
through it.
    The witnesses told us there will be a number of clear 
synergies and benefits for customary law enforcement missions 
through the proposed reorganization. They also expressed 
serious concerns, however, that it is inevitable that an 
increased focus on homeland security will result in a reduction 
in intensity and resources to those customary missions.
    As Governor Ridge well knows, from having represented Erie, 
PA, the Coast Guard has many missions beyond homeland security. 
We saw this immediately after September 11th. And the same 
principle is equally clear from the slated mission of the 
proposed new department which is defined solely in the terms of 
catastrophic terrorism.
    Our hearing made it evident that any legislation to create 
this new department must define more broadly than just 
catastrophic terrorism and must include specific institutional 
and other protections to ensure that those missions will be 
vigorously continued. I look forward to working with this 
committee and the leadership of the Select Committee, as well 
as Governor Ridge, to ensure the inclusion of these protections 
in any final bill.
    I would also like to take this opportunity to remind my 
colleagues and Governor Ridge that more than 4,000 Americans 
die each year from drug abuse, at least the equivalent of a 
major terrorist attack. Our ranking member, Mr. Cummings, has 
consistently pointed out we are already under chemical attack 
from international drug cartels, which also fund and are the 
sources of funding for catastrophic terrorism that this new 
department has created to counter. And we must make sure that 
this department fully addresses this potential conflict as we 
look forward to this.
    I also want to support my colleagues' comments on the 
Department of Consular Affairs. This is predominately an agency 
to address border security for catastrophic terrorism. And if 
we don't have the visa clearance process under this department, 
it is unclear how we can make our borders safe.
    So I look forward to working on this. I was an original 
cosponsor with this. I believe we can fix these things, but we 
need to work together and that is why we have a committee 
process to go through these hard decisions. I yield back.
    Mr. Burton. Thank you, Mr. Souder.
    Mr. Clay.
    Mr. Clay. Mr. Chairman, I, too, would like to welcome the 
distinguished witness testifying before the committee, Governor 
Ridge. I would like to commend you on your courage for 
accepting this challenge and commend your team for the work 
that they have put into helping to develop this proposal.
    I am concerned about the lack of information that has not 
been forthcoming from the administration to restructure the 
communication and coordination effort between the FBI and the 
CIA.
    Without a doubt, I am certain that there was a collapse in 
the coordination effort between these two agencies before 
September 11, 2001. It now appears that the administration's 
proposal leaves the FBI virtually omitted from further 
discussion.
    From further discussion, the lone possible exception might 
be the proposed transferrence of the Bureau's Office of 
National Domestic Preparedness and the Center for National 
Infrastructure Protection. Does this mean that the 
administration considers domestic intelligence reform 
addressed? If so, I suggest a return to the drawing board to 
revise the initial draft. It seems to me that it is only a 
starting point for further discussion. Much more thought and 
planning should go into addressing this part of the challenge. 
I believe that the intelligence component ultimately will be 
the cornerstone of the new department. I recently read that the 
proposal requests an office be created within the new 
department to synthesize information from these two agencies. 
However, I question who will determine what information will be 
shared if the agencies collect their own raw data.
    Is there a check and balance system to address this issue. 
Let's not simply create another bureaucratic quagmire from 
which little anything, if anything will come. Let's make the 
proposed Department of Homeland Security something that the 
American people can be confident in and proud of. My hope is 
that there will never be an intelligence failure of the 
magnitude that we experienced last year. Finally, Congress has 
a Constitutional responsibility to the American people to 
fulfill its oversight responsibility. I ask that we not 
prematurely assume that our work will be done when this 
department is created. On the contrary, it has only just begun. 
Mr. Chairman, I ask unanimous consent to place my statement 
into the record.
    Mr. Burton. Without objection. So ordered.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.020
    
    [GRAPHIC] [TIFF OMITTED] 81325.021
    
    Mr. Burton. Mr. Miller.
    Mr. Miller. Governor Ridge, Mr. Chairman, I congratulate 
you for bringing the proposal to this stage for the 6 months of 
effort that's gone into it, and also for making it very 
bipartisan. I'm just delighted that on both sides of the aisle, 
both Houses, the Senate and the House, that it's moving 
forward. So I congratulate you on your effort and look forward 
to your statement and the opportunity to ask questions.
    Mr. Burton. Thank you Mr. Miller.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. Welcome, 
Governor Ridge. I, along with many others in Congress have 
advocated for a separate department devoted to homeland 
security for many months. I am pleased that we can now all work 
on a bipartisan basis committed to protecting Americans, our 
Nation and the freedoms we all enjoy. Dozens of Federal 
agencies and programs spread throughout the government will be 
shifted to this new Department of Homeland Security. However, 
the war on terrorism must be waged in a way that does not 
compromise other vital missions that existing agencies carry 
out.
    Yesterday the House passed a resolution to create a 
temporary select committee that will consolidate and prepare a 
bill for the floor. The Criminal Justice, National Security, 
and Civil Service Subcommittees have held hearings exploring 
the Lieberman/Thornberry legislative proposal and the impact 
that the homeland reorganization will have on law enforcement 
and drug interdiction.
    Additionally, we have discussed the increased needs to 
protect our northern and southern borders, our coastal borders, 
and the Nation's ports and train systems. Although the creation 
of the Department of Homeland Security is needed, I believe a 
few issues need to be addressed as we review this legislative 
proposal.
    What will be the budget justification for the new agency? 
Why is the entire intelligence community like the FBI, CIA NSA, 
DIA excluded from the new agency? Will Federal employees be 
transferred to this new agency? Will they lose the protections 
and benefits they currently enjoy? Why has administrations' 
proposal exempted the new department from the requirements of 
the Federal Advisory Committee Act and the Freedom of 
Information Act? What impact will the creation of a new agency 
have on the critical nonterrorism missions and functions of the 
merged agency?
    The passage of this legislation is attainable, but we will 
encounter many obstacles along the way. But as we move forward 
on this massive undertaking to synergize the manpower and brain 
power of these agencies for the purposes of homeland security, 
I am concerned about the possible abrogation of civil rights. 
In particular, I am concerned about how this new department may 
undermine the progress made in this country on ending racial 
profiling. For example, through intensive airline passenger 
screening and through dragnet INS practices.
    Last, I am concerned about the provisions in the bill that 
would exempt the new agencies from complying with the Freedom 
of Information Act and Federal Advisory Committee Act as this 
exemption for an agency of this size threatens to begin an era 
of government secrecy, which I know the American people want to 
avoid. Creation of a new department will not make us immune 
from terrorism. But it will point us in the right direction. 
The American people want to see action from their elected 
officials to address real security threats. Congress, the 
administration and local law enforcement and elected officials 
must all work together to make the United States secure.
    With that, Mr. Chairman I yield back.
    Mr. Burton. Thank you, Mr. Cummings.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I won't repeat the 
greetings to Governor Ridge. He's been greeted 33 times. I 
won't repeat the questions about the President submitting this 
package. That's been repeated 31 times. I do want to express to 
Mr. Miller my appreciation for his brevity. I'll submit my 
statement for the record. I yield back.
    Mr. Burton. Hallelujah.
    [The prepared statement of Hon. Doug Ose follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.022
    
    [GRAPHIC] [TIFF OMITTED] 81325.023
    
    [GRAPHIC] [TIFF OMITTED] 81325.024
    
    Mr. Burton. Mrs. Mink.
    Mrs. Mink. Thank you Mr. Chairman. I too want to join in 
welcoming Governor Ridge to this very, very important meeting. 
I don't think there's anyone in the Congress that does not 
support the idea of the creation of a department of homeland 
security and the necessity to coordinate better the activities 
of the Federal Government that relate to homeland security. But 
there will be many questions as to the scope and depth of the 
transfers of various agencies and functions of agencies to this 
new department. And I hope that in your view, and in the 
administration's view, that this is not considered a criticism 
or a lack of support of the idea, because I think that it is 
the Congress's responsibility to look at all of the suggestions 
from our vantage point to see that there is sufficient 
justification for the transfers being made and that they are 
not being done wholesale for convenience purposes.
    And I think that is what concerns me the most. The agency 
that comes to my mind is FEMA. I realize that it is an 
emergency agency, but from our vantage point out in the 
constituency, it is an agency that has mastered the technique 
of responding to natural disasters. And it did a phenomenal job 
several times in my State. And while that is an important 
function, it services the constituency. I can't see the 
necessity of transferring the entire agency over to Homeland 
Security. I think it would somehow compromise the work that it 
now does for the natural disaster management, which is so 
critical to all of us, floods, fires and so forth.
    So I hope that the administration will carefully look at 
that area and discuss that proposal with us in a much more 
intense way. Looking at some of these functions that we 
question as to why they are needed to be transferred, what 
comes to mind is the overall exemptions that you are suggesting 
be made with reference to laws like the Freedom of Information. 
If there are functions like FEMA that have nothing to do with 
homeland security, and have to do with natural disasters, why 
do we want to exempt that agency from the Freedom of 
Information?
    This year we're celebrating the 30 years since Watergate 
and it is since Watergate that Freedom of Information Act has 
been perfected. And it has safeguarded the rights of the public 
to information that had been hidden in archives and in files 
and other places. So I would hate to see the Freedom of 
Information cast away merely because these departments have 
been transferred together under the homeland security concept. 
I think that the Freedom of Information Act currently already 
sets forth at least a dozen areas for exemption, which the head 
of the agency is free to exercise.
    If a citizen asks for some documents and the agency had 
said this has to do with national security, there is an 
exemption so that the information does not need to be 
transmitted. I certainly don't want to see the Civil Service 
protections also jeopardized. My time has come to an end. I ask 
unanimous consent that my entire statement be inserted in the 
record, Mr. Chairman.
    [The prepared statement of Hon. Patsy T. Mink follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.025
    
    [GRAPHIC] [TIFF OMITTED] 81325.026
    
    [GRAPHIC] [TIFF OMITTED] 81325.027
    
    Mr. Burton. Without objection, so ordered. We will go to 
Mr. Platts next, but before we do that, let me tell Governor 
Ridge and everybody that we have three votes on the floor. I 
apologize for the break, but we're going to have to take it. We 
should be back in about 25 minutes.
    Mr. Ridge. Mr. Chairman, I might add, having been on the 
other side of the desk for 12 years, I appreciate the sequence 
of votes and I will be happy to wait until you return.
    Mr. Burton. Thank you, Governor Ridge. It's nice to have a 
previous member here. One of my compatriots.
    Mr. Platts, and those of you that want to go vote, go 
ahead, and we'll let Mr. Platts conclude and then we'll go on 
over there. Well, if you want to stay, fine.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I'll be brief and just 
want to first thank you and Subcommittee Chairman Shays, for 
your great work and leadership on the issues of homeland 
security since and also prior to September 11th.
    Governor Ridge, it's a delight to, as a fellow 
Pennsylvanian, to have you here. And while we were in 
Pennsylvania, saddened to lose you 8 months ago as our 
Governor, we certainly were heartened to know that the safety 
and security of all Americans was going to be and now has been 
greatly enhanced because of your leadership as Director of the 
Office of Homeland Security, and I commend you on the thorough 
nature of the administration's proposal and the new Department 
of Homeland Security and look forward to working with you and 
the entire administration as we move it through the legislative 
process.
    One area that I don't know if you'll touch on today, but if 
your office could followup with me on, is in the critical 
infrastructure. You're certainly familiar with our nuclear 
power plants with two of them adjoining, abutting my district, 
I've asked a question to the White House Legislative Affairs 
Office regarding the Critical Infrastructure Assurance Office 
and how the transfer of that office would relate to the Nuclear 
Regulatory Commission authority over the security of the power 
plants, and as we move forward, if we can get some more 
specifics on that aspect of the critical infrastructure.
    But I do commend you and you and President Bush and the 
entire administration for a very well thought-out proposal, and 
as I say, look forward to working with you as it moves forward. 
Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Platts.
    Ms. Norton, you're next. Do you want to go ahead and do 
yours? We have time if you so choose.
    Ms. Norton. Thank you, Mr. Chairman. And Governor Ridge, I 
appreciate the enormous challenge that confronts you. You're 
asked to make essentially both structural and functional 
transformation. That would be a major challenge even if we 
weren't talking about the defense of the homeland. I believe 
that function will follow form. Form of course is the easy 
part. Of course, in the bill that is not always apparent. It's 
certainly not self-evident. But I believe that the President's 
proposal is rational and so I begin with a presumption in its 
favor.
    And for me, the overriding question of these--of this 
process we are beginning is, is it functional? Is it going to 
be functional and that we can only appreciate as more comes 
out. Let me say to you, Governor, how much I appreciate that 
our own mayor, Mayor Tony Williams, has been asked by the 
President to join the President's newly created Homeland 
Security Commission that advises him.
    I think what the President has done is to recognize the 
role of the District of Columbia as first responder. And we 
appreciate that understanding. If something happens to this 
place or the White House or, God forbid, the Supreme Court or 
any place else, the first to get there, the first charged with 
getting there will be agencies of the District of Columbia, and 
they are being prepared for that role as I speak.
    One of the committees on which I serve actually drew a bill 
that will not be the bill that comes forward, but that bill 
contains a specific provision for the Mayor or his designee to 
be at the table of Homeland Security. And I will hope to insert 
such a provision in the President's bill as well.
    The Justice Department, for example, has already included a 
District of Columbia's designee on its own terrorism task 
force. Again, the point is if you're going to be a first 
responder you have got to have all the tools to do that job.
    Governor Ridge, I would like to raise two issues briefly, 
one in the bill and one that I understand is under discussion 
both of which I regard as needless barriers. One has to do with 
the merit system. The merit system has been the best guarantee 
against racial and other forms of discrimination and favoritism 
for 100 years now.
    The President's bill actually strips all labor and Civil 
Service protections from all the employees of these agencies 
unless two political appointees say so. That is a kind of 
throwback that would make it impossible for many people on both 
sides of the aisle to support the bill itself. Now, the mantra, 
when this issue was raised for the Transportation Security 
Administration was trust us, we need the bill. Go do it. We'll 
come back to it. What happened? Those employees were stripped 
of their protections, so I don't think this can be delayed 
here.
    Another reason why I think you will want to get rid of it 
altogether is that there is a huge brain drain going on in the 
Civil Service today. Reorganization itself will send many 
employees out. If they think they're going to be stripped of 
any of their protections, all of the most experienced employees 
will flee the ship. Got to take that out now because it is 
going to hasten early retirements. 50 percent of the Federal 
work force could leave today. I'm almost through.
    Mr. Burton. Ms. Norton, we want to get one more person in. 
Mrs. Morella, would like to make her statement, so could you 
submit the rest of that or ask that when we get to the question 
period?
    Ms. Norton. If I could just say one thing. Some senior 
administration official was quoted as saying under discussion 
is moving this agency outside of the District of Columbia. That 
flies in the face of decades of Executive orders. I have an 
idea for you, 180 acres at the Old St. Elizabeth's Hospital. 
Let's discuss that one, Governor Ridge.
    Mr. Burton. OK. OK.
    Mrs. Morella.
    Mrs. Morella. This is a good opportunity for me to give my 
statement, Mr. Chairman. The creation of the new Department of 
Homeland Security is the most significant transformation of 
U.S. Government in over half a century, and I think it is 
necessary because of the current confusing patchwork of 
government activities in this area. The current system is a 
labyrinth spread among more than 100 government entities, none 
of which has homeland security as its primary mission.
    The new department would move almost all agencies that 
handle domestic security into a single department, whose 
primary mission is to protect our homeland. It's essential that 
we have a more unified homeland security structure that 
enhances protection against today's threats while also being 
flexible enough to help meet the unknown threats of the future. 
I don't know yet who is going to head the new department, but I 
do endorse Governor Ridge for the job.
    I'm sure that the last several months have been an 
enjoyable primer for him on the issue. I know that he has the 
necessary skills to successfully lead the new agency and he has 
my support. But one thing I don't know or understand is why the 
administration's plan seeks to grant the new Secretary so much 
unprecedented managerial flexibility, which would include the 
power to remove existing Federal personnel rules and 
regulations, including the current pay structure, labor 
management rules and performance appraisal system.
    The administration has stated publicly that they don't know 
of any one cabinet official who has all the flexibility the 
homeland secretary would possess under this new plan. Given the 
battle that was waged over Federalizing airport screeners, 
given the fact that there is little chance the Senate would 
agree to this, and given the fact that both Democrats and 
Republicans in the House testified last week in front of this 
committee that they do not feel radical changes to personnel 
rules are necessary, why fight this fight?
    One of the many lessons of September 11th was the 
demonstrated strength and resolve and patriotism of our Civil 
Service. The great majority of Federal employees were at work 
on September 12th. Law enforcement personnel responded without 
complaint to the significant increase in their workday and 
workweek. And all Federal personnel accepted the new 
restrictions on many of their liberties.
    So why insinuate that Federal personnel cannot be trusted 
to willingly protect our homeland when they so willingly have? 
Sweeping aside 25 years of Civil Service law will not enhance 
the performance of the new agency. It will only exacerbate it. 
So I look forward, Governor Ridge, to your testimony and any 
answers you can provide and I yield back the balance of my 
time. Thank you.
    [The prepared statement of Hon. Constance A. Morella 
follows:]
[GRAPHIC] [TIFF OMITTED] 81325.028

[GRAPHIC] [TIFF OMITTED] 81325.029

    Mr. Burton. The gentlelady yields back the balance of her 
time. I want you to know you have to put our tennis shoes on. 
We have 2 minutes and 50 seconds to get to the floor for a 
vote. With that, we stand in recess until the fall of the 
gavel.
    [Recess.]
    Mr. Burton. Well, the illustrious Governor, my old golfing 
buddy is back, so we'll resume our hearing. Next on the 
schedule is Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. Governor, thank you 
for your leadership in this very difficult time. I don't know 
that we can really say that enough to you even though you have 
heard it over and over again. And I think that all of us on 
both sides of the aisle want to work with you as a partner to 
get this job done and to get it done very quickly. And I'm 
confident that will be the result of the efforts we're now 
embarking upon.
    I know that you share the concern that we all have, and 
that is, in our haste to reorganize, that we may find that our 
schedule creates a new organizational chart with 169,000 
employees of what now is about 10 different Federal agencies 
being issued a new business card, and begin to wonder what else 
we've accomplished. But I do believe that this reorganization 
will set the framework for accomplishing the mission of 
protecting the homeland, even though the organizational chart 
alone is not really what will accomplish it.
    So we embark upon an effort that obviously is going to 
require a great deal of effort within the administration to 
make it successful. I shared with you a thought last week when 
you spoke to the entire House in our Chamber that I want to 
mention again, because I think it's very important that we take 
advantage of the opportunity of reorganization to take a good 
close look at all of these agencies that you're bringing 
together, to see if there are ways that we can save money in 
the process.
    I know in your statement that you have shared with us, it 
says the creation of the Department of Homeland Security will 
not grow government. And I know that we all understand the 
importance of trying to hold down the cost of this new 
requirement that we're all faced with of protecting the 
homeland. But the truth is, if we're going to be honest with 
the American people, we'll have to tell them that we've already 
incurred a whole lot of additional expenses after September 
11th, and in order to keep a pledge not to grow government, 
it's going to require some finding some ways to save money 
within those existing agencies.
    And I shared with you last week, I hope you will urge the 
managers in all of these departments, to come up with some 
suggestions for both you and this Congress, of things that may 
not be quite as important to be doing in government as the task 
at hand, and perhaps we could actually realize the goal that 
you have set out of not growing government in the process. We 
all know that this is going to be a difficult task. But I do 
think that we ought to use it as a historic opportunity. After 
all, we haven't seen a reorganization of government on this 
scale in decades.
    And any time, I know at the State level, and you, of course 
have had the same experience, when we seek to reorganize 
agencies, we utilize the sunset process. That is the time when 
we really require those agency managers to justify what they 
are doing. To tell us what performance objectives they have and 
to set in place the performance measures necessary to determine 
whether they have accomplished what they said they were going 
to set out to do.
    So I hope we can do that in this process. Again, we thank 
you and we'll be a partner with you to get it done.
    Mr. Ridge. Thank you.
    Mr. Burton. Thank you, Mr. Turner.
    Our vice chairman, who served as the U.S. Attorney, and I 
think spent what, 8 years with the CIA, I think is going to be 
very helpful to us in this endeavor, and we'll now yield to 
him.
    Mr. Barr. Thank you Mr. Chairman I thank you very much, Mr. 
Governor, for being with us today. I was thinking several days 
ago I was down at the District that prior to September 11th, if 
somebody had mentioned the term ``homeland security'' at one of 
our town hall meetings, most people would have thought they 
were talking about a savings and loan association. The term, of 
course, takes on a much different and the most serious of 
connotations now as it should. I think all of us realize that 
there will be future terrorist attacks attempted against this 
country. We can't guarantee that won't happen. We expect it'll 
happen.
    But in large measure, what you all are proposing what the 
President and yourself and others in the administration are 
proposing, and which will be taken up here on the Hill, that is 
your legislation, which I am proud to serve as the original 
cosponsor for, will help in larger measure determine whether or 
not we can prevent and will prevent those future terrorist 
attacks from being successful, and I think that the approach 
that you're taking maybe it's not perfect yet, maybe it is, I 
don't know. But as we work for this process up here, I think 
what you sent up to us to begin with is a very thoughtful, very 
comprehensive piece of legislation that preserves some of the 
important elements inherent in the need for objective and 
independence in our intelligence business, both foreign and 
counterintelligence that is the domestic side.
    One realizes, of course, as you do, even though you're not 
a bureaucrat, and that's one of your greatest strengths is 
you're not. I remember on one of the first trips you made to 
the Hill here after your appointment as the President's top 
advisor and Director for Homeland Security, one of our 
colleagues asked what you needed. And you said look, I'm not 
coming up here to ask for a bunch of money or a bunch of 
positions yet. Let's see, you know, let me get into this thing, 
study it and then come back to you and tell you if we need new 
authority, if we need money. That's a very refreshing approach.
    Well, you have come back to us now after several months of 
very, very careful study and what you're proposing, I think, is 
a very good solid piece of legislation from which to start. 
Similar, though, to prior pieces of government reorganization 
legislations such as the 1994 CIA Act that established the CIA 
as the central repository for objective and independent foreign 
intelligence and provided specific authorities for the exercise 
and the success of those missions, it wasn't an immediate 
overnight success. It still is a constant battle to assure that 
independence and that objectivity.
    So this is really the start of a very long process to be 
honest, a never-ending process of trying to make sure that we 
meet the ever-changing threats out there within a framework 
that respects our constitution, respects principles of 
federalism, yet provides the necessary, the essential framework 
within which to do this.
    So I think that we have before us a very, very solid start, 
Governor, and whether you're the eventual Secretary of Homeland 
Security or somebody else is, I hope it's somebody that has the 
qualities that you bring to the equation and that is, 
nonbureaucratic strength and insight and flexibility and a 
tremendous patriotism.
    So I appreciate what you're doing here today. I appreciate 
what the administration is doing and share--as the chairman 
says, we look forward to working with you to take this piece of 
legislation and make it the very, very best vehicle to 
accomplish these goals for the American people.
    Mr. Burton. Thank you, Mr. Barr.
    Mrs. Maloney.
    Mrs. Maloney. Thank you Mr. Chairman, and thank you, 
Governor Ridge for your service to the Nation. We just received 
the administration's proposal, which looks very promising on 
paper. But I would say that the main question remains, and what 
New Yorkers really want to know is how will this organizational 
flow chart make our country safer? And will the reshuffling of 
paper boxes, will it make individuals safer?
    Last night I was told that the White House was evacuated. 
There was a bomb scare at the Federal Reserve, and Governor 
Ridge, as you have said before, ``even under the best of 
circumstances, a new attack by al Qaeda or another terrorist 
group is inevitable.'' And since you've said that attack may be 
at some point inevitable, I think we all need to look and spend 
a lot of time at the response and recovery efforts and in the 
aftermath of attacks, especially attack in an urban center.
    And New Yorkers, I can say, know better than anyone at this 
point that we have to do a better job with coordination and 
response after an attack. The problems New York has had with 
FEMA, with coordinating the response on air quality, the 
process, the New York delegation had to go through to get the 
promised aid and the ongoing difficulty that we've had in 
getting this aid to the people who need it, there's been very 
much of a gulf between what has been said and what has been 
done. And FEMA may do a very good job in helping recover from a 
flood, but it has not done all that it could to help New 
Yorkers recover. Too often we've been denied aid because of 
rigid standards or excessive standards for evaluating who 
should or should not get aid.
    And as a response, we've had to fight for our schools that 
had to close down, our hospitals, utilities, for not for 
profits and for victims themselves. While the aid has been 
authorized, it's been difficult to get it released and we still 
have many unpaid bills and unmet needs. So we've been told that 
this is progress, and we've been told that it's good news. And 
I look forward to hearing from you. I can tell you that New 
Yorkers, more than anyone in this country or probably everyone 
in this country, wants to hear more
about your plan and how we're going to work together to protect 
our citizens and to make our country safer. Thank you very much 
for your efforts and congratulations. We're glad you're here.
    Mr. Burton. Thank you, Mrs. Maloney.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] 81325.030

[GRAPHIC] [TIFF OMITTED] 81325.031

    Mr. Burton. Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman, and thank you, 
Governor, for your patience for sitting through all of this and 
for your leadership, most important. As a former colleague, we 
value your being in this important post. And I want to thank 
Chairman Burton for conducting this important hearing and for 
your continued leadership of our Government Reform Committee. 
As we oversee the monumental task of reforming our national 
security infrastructure, as President Bush recently stated, the 
barbaric events of September 11 represented a pivotal moment in 
our Nation's history.
    And while our dedicated men and women in uniform as well as 
the concerned citizens all acted valiantly on September 11th, 
in the months that followed, it was obvious that our existing 
governmental infrastructure was inadequately designed to 
prevent or respond to the scale of those attacks.
    Accordingly, we're pleased to welcome you Governor Ridge, 
to testify before our committee regarding the proposal by the 
President to establish a new Department of Homeland Security, 
the creation of which represents, I understand, the most 
significant change in our government since the National 
Security Act of 1947 which restructured--constructed and 
formalized our Nation's military command and structure.
    Moreover it will clarify and centralize the kind of 
security responsibility that's needed under a cabinet level 
secretary accountable to the Congress, and we hope you'll be 
filling that post in the near future. As history has 
demonstrated, authority with accountability is the best means 
to more effective government. Accordingly, in the interest of 
our Nation's security, support our move forward and moving 
forward expeditiously on this measure and I look forward to 
working with you, and we look forward to your testimony today, 
Governor Ridge, and we hope that you'll soon be conducting the 
executive authority in that post. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Gilman.
    Ms. Watson.
    Ms. Watson. By now, Governor Ridge, I know your eyes have 
glazed over and your ears are filled to the stoppage point. I 
just want to make three points and let you get on with your 
testimony. The first point is the cost of such an agency, and 
we would want to know something about that. The second point is 
a need to do an analysis of the different offices that are 
slated to be in this new department, because many of these 
agencies have varied responsibilities. Some relate to homeland 
security. Some have other responsibilities that don't naturally 
relate.
    And let me give you a for instance, and that is, the 
Department of Homeland Security will be preventing agriculture 
terrorism. But we need to insure that other duties like 
protecting America's agriculture and protecting consumers do 
not get lost along the way. So I don't know what you're going 
to do there. You might speak to it.
    And the other has been mentioned time and again. And that 
is, where the FBI and the CIA fit, their functions fit under 
this de-
partment. Good luck. I hope that you continue the kind of 
patient attitude I have observed and God bless. I would like to 
submit the rest of my statement for the record Mr. Chairman.
    Mr. Burton. Without objection. Thank you, Ms. Watson.
    [The prepared statement of Hon. Diane E. Watson follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.032
    
    [GRAPHIC] [TIFF OMITTED] 81325.033
    
    [GRAPHIC] [TIFF OMITTED] 81325.034
    
    [GRAPHIC] [TIFF OMITTED] 81325.035
    
    [GRAPHIC] [TIFF OMITTED] 81325.036
    
    Mr. Burton. Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman. And I also appreciate 
the toughness of the Governor, the Governor's patience and his 
ability to withstand all these opening statements 3 minutes at 
a time.
    Between 1980 and 2000, the FBI recorded 335 incidents of or 
suspected incidents of terrorism, 247 of which were considered 
domestic. And so as we get into this reorganization of the 
government, I think a fair case can be made that we have been 
vulnerable to terrorism for over 2 decades. But our lack of an 
adequate response actually made us more vulnerable to future 
attacks. This is not just a reaction to September 11th. This 
has been brewing for some time now. And I appreciate the 
approach that you and the President bring to think boldly and 
to attack this not just at the periphery but at the core.
    And I will say that to that end, we marked up in this 
committee a postal reform bill this morning that was 120 pages 
and the biggest reorganization in 50 years is 35 pages. I make 
that point only to say that while we're off to a great start, 
the details matter. We need to get it right the first time. We 
need to be thoughtful about this. There's a tremendous amount 
of congressional resources that have been working on this issue 
for years. Chairman Shays is one of them on the Subcommittee on 
National Security who, 2 years ago, was holding hearings on 
creating an office or a department of homeland security.
    I would encourage you, as we move through this process, to 
tap into the knowledge and resources of the congressional 
leadership and the folks who have been toiling in this vineyard 
for sometime. There are a number of concerns that I have. While 
I believe that we're moving in the right direction, some have 
been mentioned.
    CDC, one of them, that the equivalent of our FEMA in a 
bioterror event, is not playing as active a role in this as 
they should. I have some concerns about distractions in the 
Department of Homeland Security on non-homeland-security-
related issues. But all of these we can get to in questions. 
And thank you for your patience and for your leadership.
    Mr. Burton. Thank you, Mr. Putnam.
    [The prepared statement of Hon. Adam H. Putnam follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.037
    
    Mr. Burton. Mr. Danny Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
and first of all, I want to thank you and Ranking Member Waxman 
for scheduling this extremely important hearing. I also want to 
welcome you, Governor, and express appreciation for the 
enormous task that you have assumed. As the ranking member of 
the Civil Service, Census and Agency Organization Subcommittee, 
I'm very concerned about provisions in the proposal that would 
grant the Secretary of the Department of Homeland Security and 
the director of Personnel Management blanket authority to set 
pay and other conditions of employment without regard to 
existing rules and protections, whistleblower protection, 
health care, retirement, antidiscrimination rules, the right to 
join a union, and merit system rules that prohibit political 
patronage could be modified or eliminated at a whim.
    Last week, the Security, Veterans Affairs and International 
Relations Subcommittee held a hearing on H.R. 460, the National 
Homeland Security and Combatting Terrorism Act of 2002. The 
act, much like the proposal being considered today created a 
Homeland Security agency. A bipartisan group of members 
testified, among them was Congresswoman Tauscher who stated, 
``I am certainly not for abrogating or rolling back any of the 
civil employee rights for either collective bargaining or 
anything under the rubric of flexibility.''
    In addition, Congresswoman Harman stated, ``this Member 
does not want to interfere with long-standing principles like 
collective bargaining.'' These and all of the other Members 
clearly opposed stripping the new department's employees of the 
Civil Service protections they have heretofore enjoyed. I 
strongly agree with them, and I look forward to your testimony 
as we delve into these matters with the hope and the 
understanding that as we establish this new agency, that we not 
use it as an opportunity to erode any of the rights and/or 
protections that employees have been able to gain over the 
years. I thank you for your being here, for your leadership. I 
thank you, Mr. Chairman, and yield back the balance of my time.
    [The prepared statement of Hon. Danny K. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.038
    
    [GRAPHIC] [TIFF OMITTED] 81325.039
    
    [GRAPHIC] [TIFF OMITTED] 81325.055
    
    [GRAPHIC] [TIFF OMITTED] 81325.056
    
    Mr. Burton. Thank you, Mr. Davis. My very good friend, Mr. 
LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. Governor, welcome. 
I am on borrowed time with the chairman here today, so I will 
be quick. I want to thank you for being here today. I also want 
to thank you for the briefing that you gave the Members of 
Congress last week. As you know from your service here, that 
this can be a very bipartisan place when everybody has the 
information. And I think your coming up to Capitol Hill and 
briefing Members of both parties prior to the submission is a 
wonderful thing, and I thank you for that.
    A couple of things. One of my other assignments is over in 
the Transportation Committee, and I chair the Subcommittee on 
Public Buildings and Emergency Management. I made the comment 
the other day that the President's proposal to take the Federal 
Protective Service and FEMA and put it in this new Homeland 
Security Agency has left me with jurisdiction only over the 
Kennedy Center. I am grateful that they left something behind. 
But, I think that the President is exactly right to focus on 
FEMA as the lead agency, because of their abilities, their 
capabilities, and they have been proven time and time again to 
coordinate effectively all of the Federal responses to many, 
many crises, man-made and also made by Mother Nature.
    One thing that I did want to bring up in my short time is 
an issue that we have seen with the Federal Protective Service, 
which is one of the agencies proposed to be transferred to this 
new cabinet level position. And, according to Administrator 
Perry, when we started all of this, there were 600 Federal 
Protective Service officers. Their goal was to get it up to 
1,000 to protect our Federal buildings and the Federal 
structures. They are now down to 200.
    The reason is that there is a $10,000--just as an example--
there is a $10,000-a-year starting salary differential between 
what a Capitol Hill police officer can make and what a Federal 
Protective Service officer makes.
    You then have, as I was walking in this building today, one 
of the Capitol Police officers grabs me and says they are 
losing all of their folks because there is a pay differential 
to the new TSA and the Transportation Department. So I would 
hope, and one of the things that excites me very much about the 
proposal, among other things, is that we treat all of the men 
and women in law enforcement, if they are in law enforcement, 
people protecting either our borders or our persons, that we 
treat them all the same, with the same pay, the benefits, the 
same health care and the same pension.
    I think that the President's proposal and your proposal has 
a chance to go a long way toward doing that. Thank you, Mr. 
Chairman.
    Mr. Burton. Thank you, Mr. LaTourette.
    Let me just say briefly that idea that you have is a good 
one. We ought to pursue legislation to make sure there is 
party.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. And I think certainly 
you have been the most active chairman this committee has ever 
had. I appreciate your leadership. I think this proposed 
department is going to pass by a very large majority. But, I do 
have some concerns. William Snyder, in the June 15th National 
Journal, wrote it would, ``simply add another layer of 
bureaucracy.'' Will adding a layer of government at the top 
make a great deal of difference? Not if the problem is at the 
bottom. And the most senior Member of this House was quoted in 
the Congress Daily yesterday as saying, ``reorganization 
doesn't always get you the results that you want. Sometimes it 
gets you more confusion, more expense, more people, and less 
work.''
    The New Republic Magazine last week said, buried in the 
final pages of the report itself is language that grudgingly 
admits that the plan creates new currently unfunded 
bureaucracies, such as the threat analysis unit. The report 
also acknowledges that increased resources and government 
growth may be necessary.
    My staff has looked over the creation of every new 
department for the last 30 years. And every one of those 
departments, their spending has gone up at many times the rate 
of inflation since the mid 1960's. And so while I do believe 
this department is going to be created in very rapid order, I 
do think that we need to be concerned about this, because all 
of those departments were created with words saying that they 
were going to increase efficiency, and do away with overlapping 
and duplication of services and so forth. Some of the same 
things we are hearing now.
    In addition, I am concerned that there seems to be a public 
relations rush to create this department by September 11th. And 
I think there is going to be enough--there is going to be many 
efforts or things being done to commemorate the tragic events 
of September 11th. I noticed last week in the Washington Post, 
Jeffrey Smith wrote a column entitled ``Haste and the Homeland 
Plan.''
    And he said that all of this is a very tall order. It 
cannot be done quickly or casually. Congress must act only 
after it is certain that it is solving the right problems and 
not creating new ones. I think most people know that I have 
been a very strong supporter of the President and Governor 
Ridge. And I hope to be on this. But I do hope that we will not 
rush into this, and that we will do everything possible to make 
sure that we don't create more problems than we solve, and that 
we don't grow government unnecessarily. I know when we created 
the Transportation Security Administration, they told us that 
they needed--we have 27,000 to 28,000 screeners. They told us 
we needed 33,000. Then after we passed the bill, they told us 
40,000. Then last month they came to the Appropriations 
Subcommittee and said that they need 72,000 employees in that 
short a time. So these are concerns of mine.
    But I appreciate, Mr. Chairman, you calling this hearing. 
And I look forward to hearing from the Governor about these 
concerns.
    [The prepared statement of Hon. John J. Duncan, Jr., 
follows:]
[GRAPHIC] [TIFF OMITTED] 81325.040

[GRAPHIC] [TIFF OMITTED] 81325.041

[GRAPHIC] [TIFF OMITTED] 81325.042

[GRAPHIC] [TIFF OMITTED] 81325.043

[GRAPHIC] [TIFF OMITTED] 81325.044

    Mr. Burton. You are not going to believe this, Governor 
Ridge. But it is now time for you. So I am going to ask Mr. 
Platts, who is one of your former colleagues to introduce you.
    Mr. Platts. Thank you, Mr. Chairman. It is certainly a 
distinct honor to introduce formally our Director of the Office 
of Homeland Security. For most Americans, he is probably known 
as director of that office or his service for 7 years as 
Governor for the State of Pennsylvania.
    But he also brings a wealth of experience beyond those two 
positions to this effort to protect Americans. Former 
prosecutor, a decorated combat veteran. A Member of the House 
of Representatives for 12 years, true public servant who has 
really given his entire adult life to the good of his fellow 
citizens. And it is a real pleasure and honor to have you here 
with us, Governor.
    Again, I thank you for your great work on behalf of all 
Americans. Thank you.
    Mr. Burton. Well, I concur. And you are on.

 STATEMENT OF TOM RIDGE, DIRECTOR, OFFICE OF HOMELAND SECURITY

    Mr. Ridge. Mr. Chairman, first of all, I want to share with 
some of my former colleagues that we are all colleagues in 
public service. There are no apologies needed for the length 
and the content and the duration of the opening statements.
    This is a historic time, an unprecedented threat to this 
country. And we need leadership in both the executive and 
legislative branches in order to combat this new enemy. And I 
can well recognize and understand and appreciate why Members 
want to be on the record as to, one, their overall support of 
this kind of initiative, but also registering, and obviously I 
took quite a few notes, doing a little intelligence gathering 
myself, the legitimate concerns that people may have about the 
structure and the combination of departments and agencies that 
we, that the President has aggregated in his proposal.
    I also want to assure my colleagues in public service that 
the differences of opinion have nothing to do with patriotism. 
We are all patriots. They may have everything to do about 
principle. In a democratic society, a transparent world in 
which we live in, the kind of interaction that Taliban and Al 
Qaeda and terrorists groups can't relate to, frankly never 
promote, it is an anathema to everything that they stand for. 
That is part of the process.
    And the mere fact that we are here discussing this in the 
daylight of public scrutiny with Republicans and Democrats 
generally committed to the journey and to the task ahead, but 
maybe having differences of opinion as to how do we achieve 
this mutual goal, that is just one more signal to those who 
would terrorize us and cause the horror and destruction of 
September 11th that we are serious about the business of 
defeating them in long term, and together, that is exactly what 
we are going to do.
    So I thank you very much for the chance to spend some time 
with you this afternoon. I am here in keeping with the 
President's very specific directive to me to present his 
proposal to you. Earlier today, the President created a 
transition planning office which will be housed in the Office 
of Management and Budget, which I will be in charge, to deal 
with the Congress of the United States as we vet the 
President's initiative, as we talk about the features of this 
new department and work with you to achieve this common goal. 
And it is in that capacity that I have been directed by the 
President to appear before you.
    I have submitted much lengthier testimony for the record, 
but I do have a few thoughts that I would like to share with 
you. The proposal was the result of a very exhaustive and 
deliberative planning process I would say to my colleagues. It 
actually began with the Vice President in May 2001, was 
accelerated with the creation of the Office of Homeland 
Security within the White House on October 8, 2001 as well.
    I want to assure the committee that my staff and I and 
others within the executive branch have literally met with 
thousands, thousands of public servants at the Federal, State 
and local level. Private citizens, companies. The outreach has 
been substantive. Because by the very nature of the President's 
directive to design and implement a national strategy, and I 
will address that question. National means that the Federal 
Government is very much a part of dealing with the threat on 
terrorism, but we need other partnerships. They need to be 
strong partnerships. They need to be partnerships with the 
Governors and partnerships with the mayors and partnerships 
with law enforcement and partnerships with the private sector, 
and partnerships with the academic community.
    The war on terrorism can only be conducted if we are all 
engaged as troops in that effort. So the outreach was 
substantial. We looked at the reports from the blue ribbon 
commissions, the Hart-Rudman, Bremer, the Gilmore Commissions. 
We took a look at the work some of the Members of Congress have 
done. We took a look at what Senator Lieberman had done, and 
Arlen Specter and Bob Graham had done, and Representatives Mack 
Thornberry and Jane Harmon, and Saxby Chambliss, Ellen Tauscher 
and Jim Gibbons. A lot or work.
    Someone earlier referred to the fact that there is a lot of 
expertise and a lot of work had been done on the Hill. We took 
a look at that as well, very appropriately so. Because, before 
we made a recommendation for the most historic, most 
significant transformation in the U.S. Government since 1947, 
we wanted to be assured that we reviewed all of the best 
thinking and the best way ahead that others had proposed over 
the past several years.
    The creation of this department would transform the 
current, rather confusing patchwork of government activities 
related to homeland security into a single department, whose 
primary agency, primary focus, primary mission is protect 
Americans and the way of life. It is one the President 
considers to be his most important job. I believe that is one 
that Congress considers to be their most important job as well.
    Responsibility for homeland security has been discussed by 
some of the Members is currently dispersed among more than 100 
different government organizations. And we need one, a single 
department whose primary focus is homeland security. A single 
department to secure our borders, a single department to give 
strategic focus to the research and development aspects of 
homeland security. A single department that builds and creates 
actually a new capacity, both to analyze information, but also 
a new means by which we take that information and apply it to 
the vulnerabilities that we have within this country, and then 
working with the requisite Federal agencies or State agencies, 
give advice, give counsel, give direction. This is the threat. 
This is the vulnerability. Make it actionability and then 
recommend the kind of action that people, communities or 
companies should take.
    The proposal to create a department of homeland security is 
one more key step in the President's national strategy for 
homeland security. Now, I would say to all of you that the 
centerpiece of the national strategy is embodied in this 
proposal. But you, if you take a look at the President's budget 
submitted earlier this year, the 2003 budget, you will see a 
significant glimpse of the pieces of the national strategy 
emerging there. So the national strategy that will be presented 
later will form the intellectual underpinning to the guide, the 
decisionmaking of planners and budgeteers and policymakers for 
years to come.
    There are not going to be any real surprises in that 
national strategy. We will be talking about missions and 
responsibilities, but by and large, it is centered about this 
reorganization of the Federal Government, not only to 
reorganize itself, in and of itself that is a good reason, 
although someone once said, good organization doesn't 
necessarily guarantee success, but a flawed organization does 
guarantee failure.
    So just the fact that we are reorganizing doesn't guarantee 
success, but the way we are presently organized, evidence of 
the past several months, have guaranteed failure. But it is not 
just the organization, it is some of the capacity that we build 
within that organization that I think will be further 
amplification in the national strategy that will be released 
here in the near future.
    I would like to turn to a couple of the details of the 
President's plan if I might. Preventing future terrorist 
attacks is our No. 1 priority. Because terrorism is a global 
threat, we must have complete control over who and what enters 
the United States. We must prevent foreign terrorists from 
entering and bringing instruments of terror, while at the same 
time, facilitate the legal flow of people and goods on which 
our economy depends. It is pretty clear after September 11th, 
if you went to the border of Canada and Mexico, we had enhanced 
security dramatically.
    If you were a Governor or mayor, Congressman or Senator 
from those States, that abut our neighbors to the north and the 
south, you will find that the enhancement of security, without 
appropriate recognition that we also need to make sure that we 
have a continuous flow of goods and services and people across 
their borders wasn't the long-term solution. We had to do 
something dramatically. We did. But again this border 
reorganization and consolidation, the President believes 
achieves two objectives. We significantly enhance the security 
of our borders, but we will also facilitate the flow of goods 
and services across the borders as well.
    The new department unifies authority of the Coast Guard, 
Customs Service, Immigration and Naturalization Service and 
Border Patrol, the Animal and Plant Health Inspection Service 
of the Department of Agriculture and the recently created 
Transportation Security Administration.
    All aspects of border control, including the issuing of 
visas, would be perfected, actually would be improved by a 
central information sharing clearinghouse and compatible data 
bases. Preventing terrorists from using our transportation 
systems to deliver their attacks is very closely related to 
border security. That is the reason behind the fusion of the 
TSA into this new department.
    Our international airports and our seaports, our land 
borders and transportation are absolutely inseparable. The new 
department would unify government's efforts to secure our 
borders and the transportation systems that move people from 
our borders to anywhere in this country in a matter of hours.
    Although our top priority is preventing future attacks, we 
cannot assume that we will always succeed. The President 
believes this is an enduring vulnerability. It is a permanent 
condition, and that we need to obviously prevent the threat, 
reduce our vulnerability, but we also have an obligation to 
work with cities and States and the private sector to prepare 
and enhance our ability to respond to an attack that occurs.
    Clearly at the centerpiece of this initiative is the 
Federal Emergency Management Agency, because the Department of 
Homeland Security would build on this agency as one of its key 
components. As someone who is very familiar with the work of 
the agency and has worked with Senator Stafford in the 1980's 
on the Stafford Act, which basically provides the rules and the 
regulations around which FEMA presently operates, I believe it 
makes good sense to build on its core competencies, and the 
relationship that FEMA has built up over the past 20-plus years 
with first responders.
    We are often not the first people to respond to a national 
incident, whether it is an earthquake or hurricane. You get 
your firemen out there, you get your EMT personnel out there. 
You get law enforcement out there. Again, the same people that 
are going to respond initially back home in the home town if a 
terrorist incident occurs.
    So there is some core competencies. There is relationship 
that preexists this new department of homeland security. I 
think we ought to build on it. The President believes that we 
add value to its historic mission. We beef it up to respond to 
a terrorist attack, at the same time, it will be even better 
equipped and better prepared to respond to a natural disaster 
as well.
    As the President made clear in his State of the Union 
Address, the war against terrorism is also a war against the 
most deadly weapons known to mankind, chemical, biological, 
radiological and nuclear. If our enemies acquire these weapons, 
I don't believe there is any doubt in anyone's mind in the 
Congress of the United States that if they have them, they will 
use them.
    And obviously if they do, potentially the consequences are 
far more devastating than those we suffered on September 11th. 
Currently, efforts to counter the threat of these weapons are 
too few and too fragmented. And we must launch a systematic 
national effort against these weapons that is equal in size to 
the threat they pose. The President's proposal does just that.
    The new department would implement a national strategy to 
prepare for and respond to the full range of terrorist threats 
involving weapons of mass destruction. It would provide 
direction and establish priorities for national research and 
development for related tests and evaluations and for the 
development and procurement of new technology and equipment.
    Then finally, it was alluded to in just about everyone's 
remarks, and that is the need to improve our ability to gather 
information, analyze information, and apply it in such a way 
that it reduces the possibility of attacks on this country.
    Preventing future terrorist attacks requires good 
information in advance. The President's proposal recognizes 
this. The President's proposal would develop a new organization 
with the authority and the new capacity to generate and provide 
that critical information. The new department would take 
information and intelligence pertaining to threats to the 
homeland from the CIA and FBI, but from the other intelligence 
gathering agencies and departments of the Federal Government. 
It would also comprehensively evaluate the vulnerabilities of 
America's critical infrastructure. And take those threat 
assessments and map them against the vulnerabilities, and if 
need be, if the circumstances require, then give prescriptive 
direction to whomever would be the potential target based on 
the threat.
    Now, I have had this capacity in one place before. Let's 
assess the threat. If it is real and credible and immediate, 
assess the vulnerability of the target of the threat, if the 
vulnerabilities exists, we have to take prescriptive action and 
the Federal needs to work with whomever the target may be to 
ensure that it is done.
    The individuals who work for the organizations tapped by 
the President for their Department of Homeland Security are 
clearly some of the most capable individuals in the Federal 
Government, and no one doubts their patriotism. We are proud of 
what they do. We are proud of their efforts long before 
September 11th when people focused on homeland security, those 
of you who oversee these departments and agencies know that we 
have literally had thousands of Federal Civil Service workers 
working on homeland security issues for a long, long time. They 
have just come to the fore because of the events of September 
11th.
    We need to call upon them and continue their crucial work 
while the new department is created. The consolidation of the 
government's homeland security efforts can achieve greater 
efficiencies, we believe, free up additional resources for the 
fight against terrorism. These fine men and women should rest 
assured their efforts will only be improved by the government 
reorganization proposed by the President.
    To achieve these efficiencies, the new secretary will be 
given considerable flexibility in procurement, integration of 
information technology systems, and personnel issues. Now, even 
with the new Department of Homeland Security, there remains a 
very strong need in the White House for an Office of Homeland 
Security. Homeland security will remain a multidepartment issue 
that will continue to require interagency collaboration. It 
will be a little bit easier for the assistant to the President 
for homeland security, certainly my tasks over the past several 
months would be easier if we had compressed a number of 
agencies that we had to deal with and put them into one. So it 
will be value added and actually improve the ability of the 
assistant to the President for homeland security to fulfill his 
or her responsibility, not only this administration, but future 
administrations.
    Therefore, the President's proposal intends for the Office 
of Homeland Security to maintain a very strong role. It will be 
critical to the future success of the new department. Finally, 
my colleagues in public service, during the transition period, 
the Office of Homeland Security will maintain vigilance and 
continue to coordinate the other Federal agencies involved in 
homeland security. The President appreciates the enthusiastic 
response from Congress and is certainly gratified via the 
expressions of optimism about how quick this bill might be 
passed.
    The President also understands that our job is to work with 
the congressional timetable, whatever the Congress decides the 
timetable should be. He is ready to work together with you in 
partnership. Until the Department of Homeland Security becomes 
fully operational, the proposed department's designated 
components will continue their mandate to help ensure the 
security of the United States.
    During his June 6th address to the Nation, the President 
asked Congress to join him in establishing a single permanent 
department with an overriding and urgent mission, securing the 
homeland of America and protecting the American people.
    Extraordinary times, unprecedented times call for 
extraordinary measures, sometimes unprecedented measures. We 
know the threats are real. And we know the need is urgent. We 
must together succeed in this endeavor. President Truman did 
not live to see the end of the cold war. But the war did end. 
And historians agree that his proposal to consolidate Federal 
resources was critical to our ultimate success.
    Ladies and gentlemen, we too have that opportunity to 
develop--to provide the leadership and provide the legacy that 
assures our success as well. And I certainly look forward to 
working with this committee and other committees in both the 
House and the Senate to achieve this mutual goal. Thank you, 
Mr. Chairman.
    Mr. Burton. Well, thank you, Governor Ridge.
    [The prepared statement of Mr. Ridge follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.045
    
    [GRAPHIC] [TIFF OMITTED] 81325.046
    
    [GRAPHIC] [TIFF OMITTED] 81325.047
    
    [GRAPHIC] [TIFF OMITTED] 81325.048
    
    [GRAPHIC] [TIFF OMITTED] 81325.049
    
    [GRAPHIC] [TIFF OMITTED] 81325.050
    
    [GRAPHIC] [TIFF OMITTED] 81325.051
    
    Mr. Burton. And you may rest assured that we will move as 
expeditiously as possible to get a product out of the House 
that will achieve the goals that you set here today.
    Let me start the questioning by mentioning that Dr. Weldon 
mentioned that there were travel agents in Saudi Arabia who 
were able to grant visas instead of having them go through the 
normal process. And he also suggested that maybe it would be 
better to have the visas in an agency that would be dealing 
with national security rather than where they are today.
    I hope that will be one of the things that you take a look 
at and that we look at as we go through this process. And I 
would like to talk to you about some length later on.
    Now, the FBI and CIA has been a real concern of this 
committee, and many of the people on this committee and other 
Members of Congress for some time. And we have felt like there 
was a lack of coordination between the two of them, especially 
after some of the briefings we have had.
    Will the new department promote better performance at the 
FBI and a CIA, and if so, how will that happen?
    Mr. Ridge. First of all, Mr. Chairman, I believe that both 
Director Tenet and Director Mueller have begun internal 
reorganization efforts consistent with not only their own 
individual assessments of what additional things need to be 
done, but obviously in light of September 11th and experiences 
related thereto have made some adjustments. I think Director 
Mueller has been up here talking to you about changing the 
organization of the FBI, creating a center for intelligence. I 
think both are trying to gear up and enhance their analytical 
capacity.
    But you raise a question that is very much on the minds of, 
I think, most Members of the House and Senate, it seems to be 
the primary focus of their concern with regard to this new 
agency. The President strongly believes that the CIA, the 
primary source of foreign intelligence information, should 
remain directly accountable to one person in the executive 
branch of government, and that is to the President of the 
United States. There is a clear line of authority, direct line 
of authority to the President of the United States.
    The President also believes that the FBI should continue to 
remain an integral part, the chief law enforcement agency of 
this country, under the auspices of the Attorney General, but 
again, there is a direct line of communication and 
accountability to the President of the United States.
    The improvements and the changes that they are seeking to 
effect within those organizations will add value to the work 
product that they would send to the new Department of Homeland 
Security. But I would like to be very clear at the outset that 
the statute would direct the CIA and the FBI to send and to 
share with the new Department of Homeland Security. This is an 
affirmative obligation in the statute for the CIA and the FBI 
to send to the new agency the reports, the assessments, and the 
analytical work that they do based on the raw data and the 
information that they receive. That is an affirmative 
obligation.
    There will be, under certain circumstances, an opportunity 
for the secretary of the new department to go back and even 
make inquiry and get access to some of that raw data. But, be 
very clear. An affirmative obligation in the statute to give 
this new department the reports, the assessments and the 
analytical work product.
    Mr. Burton. Well, let me just elaborate a little bit on 
this issue. In the event that there was an imminent attack on 
the United States or some area of the United States, it seems 
it would be imperative for the FBI, CIA and homeland security 
to have that information all together at one time so that the 
President could get the whole picture just like that.
    Mr. Ridge. Yes, sir.
    Mr. Burton. It concerns me and it concerns some of my 
colleagues that if you have the FBI coming here, the CIA coming 
here, and Homeland Security coming here, that the information 
may not be coordinated in such a way that the President gets 
that immediately. And I guess my question to you is, are you 
confident that this can be done, and will be done in such a way 
that there will be immediate access by the President to this 
information so that if there was an imminent terrorist attack, 
he has all of the information at his disposal so that he can 
move quickly?
    Mr. Ridge. Yes. Mr. Chairman, I cannot speak to the 
protocol and procedures followed by previous Presidents. But I 
know this President, on a daily basis, brings the leaders, 
brings the Director of CIA, the Director of the FBI, the 
Attorney General, and the assistant to the President for 
Homeland Security, meets with him on a daily basis as 
commander-in-chief. We meet with the President of the United 
States whenever he instructs us to meet with him.
    But, that fusion, that personal fusion and sharing of 
intelligence information often goes on in the presence of the 
President, who often goes back and tasks those involved in the 
conversation, to do additional things in furtherance of his 
commitment, his goal, which he considers to be job one, 
enhancing the security of America and protecting citizens.
    Mr. Burton. Well, that is good to know, because we had some 
occasions, some of the briefings we had in the past where many 
of us felt like that coordination was not there. And so I am 
glad to hear that is one of the major things.
    Mr. Ridge. You raise a very important question, Mr. 
Chairman. Again, my frame of reference is October 8 forward. 
But my sense has been that over the past couple of months the 
CIA, maybe over the past several years, but the CIA and the FBI 
have begun to collocate agents and analysts together. I would 
presume that is an option or something that the new secretary 
of Homeland Security would want to engage in as well. So that, 
at the CIA and at the FBI, and at the new Department of 
Homeland Security, in that integration and the analysis unit, 
you actually have some CIA, FBI and some homeland security 
analysts working together in the three independent agencies.
    Mr. Burton. Thank you, sir.
    Mr. Kucinich.
    Mr. Kucinich. I thank the Chair. There is a couple of 
things that I think it is important in terms of where you are 
going with this strategy that you talk about that is already 
evident, based on the record of the past few months.
    And I think that a Member of Congress would be remiss not 
to try to get a direct answer out of you about what in the 
world has happened with this anthrax investigation. And why 
don't the American people know the answers, as far as where it 
came from, who is responsible, and what has been done to pursue 
those who are responsible?
    Mr. Ridge. Well, Congressman, there has been quite a bit of 
praise heaped upon the men and women who are involved in 
homeland security issues. And I think very appropriately so. 
Among those men and women who have been justifiably praised by 
this committee and other committees are the folks at the CDC, 
at the NIH, the men and women that work for the FBI and other 
law enforcement department or agencies around the Federal 
Government. And literally hundreds if not thousands of people 
continue to work this issue.
    Everyone has moved as aggressively and as appropriately as 
they possible can. The continued work that they are doing on 
the science of these anthrax spores, trying to determine from 
the unique qualities of these spores, whether there is 
information, can be gleaned from the very cumbersome and 
complex process that they have to go through scientifically 
looking at these spores.
    The only thing I can tell you, Congressman, is that every 
single day, hundreds of the men and women that everybody in 
this--on this committee has been praising, justifiably so, go 
to work every day trying to get answers.
    Mr. Kucinich. May I say, Governor, with all due respect----
    Mr. Ridge. That always makes me nervous.
    Mr. Kucinich. It should. Because our way of life on Capitol 
Hill was changed. Now, I understand from----
    Mr. Ridge. The way of life in people in the communities in 
New York, New Jersey and----
    Mr. Kucinich. But we don't even get mail without it going 
through irradiation. And it is very serious. When people cannot 
communicate with Members of Congress expeditiously as they are 
used to. Now, I am asking you directly. There have been 
published reports that suggest that the anthrax came from Ft. 
Dietrich out of a controlled and secured area. That there is 
only a very few people who could have had access to that.
    Now, there has never been any public hearings that have 
pinned this down. I am asking you, what about this? Is it 
connected to anyone who worked for the government, who was 
under contract to the government, and when are you going to 
give an accounting to the people of this country and to this 
Congress on this? If we are going to turn our homeland security 
over to one umbrella department, how can we be assured of 
having any confidence in that if given the present structure 
with all of the thousands of people that you talk about that 
are working on this, that we don't have an answer to a 
biological attack on this Congress and on this country.
    Mr. Ridge. Well, as you pointed out, Congressman, it is not 
just the Congress that has endured both the emotional and the 
physical challenge of dealing with anthrax, but there are five 
families who have suffered a personal loss, and there have been 
untold members of families that were sick and perhaps even some 
men and women that worked for the Congress of the United States 
affected by it.
    Congressman, the only thing I can tell you is that the FBI 
and the law enforcement community has followed and continues to 
follow every single lead that they possible can.
    I can only tell you that they have also had to followup on 
some bad information and some misinformation and obviously some 
hoaxes out there. That Director Mueller, that the agencies 
involved in the scientific research, continue to keep this as a 
very high priority, and as such time as that the human or the 
scientific leads take them to final resolution, they will 
continue to work as aggressively as they possibly can to find 
out the source and bring the perpetrators to justice.
    Mr. Kucinich. I understand the limitations of your 
testimony. I just want to make one more comment, and that is 
that you said in your testimony, that this structure responds 
to what you believe is a permanent condition. I think that we 
really need to reflect on that. To ask why it is a permanent 
condition, and why it is that the people of this country should 
continue to be in fear. We need to explore that a little bit 
more while we are going into these structural issues as well. 
And I thank the Governor for his presence here. I truly do.
    Mr. Burton. Thank you, Mr. Kucinich.
    Mr. Shays.
    Mr. Shays. Thank you. I think the answer to the question of 
why it is a permanent condition is that terrorists have weapons 
of mass destruction. We know there is no red line. We know that 
they are willing to cross it. And we need to be able to respond 
in this race with terrorists to shut them down before they use 
these weapons, chemical, biological, radioactive or nuclear.
    But, related to his point, Mr. Kucinich's point, and who 
has been a very hard working member of our subcommittee and a 
very thoughtful one, I would love you to explain--we basically 
are taking the reorganization before we fully heard, as Mr. 
Kucinich pointed out in his statement, what the threat analysis 
is and what the strategy is. Will we, before we adopt this 
legislation, have a fairly delineated explanation of the threat 
assessment and the strategy?
    Mr. Ridge. As I mentioned, Congressman, there will be no 
surprises in the national strategy. You see basically the 
infrastructure around which the strategy, or upon which the 
strategy would be based in the President's initiative. The 
threat assessment is fairly straightforward, and I think most 
Americans understand it.
    There are literally thousands of terrorists in the Al Qaeda 
organization that--the cells in dozens and dozens of countries 
around the world, who have as their primary target, undermining 
our way of life, and who do not distinguish between combatants 
and civilians, who deploy strategy and tactics in their 
asymmetrical efforts to undermine us, the likes of which we 
have never confronted before and who choose to turn our cities 
into battlefields. The threat is there. We know that the--I am 
sure in your committee hearings you understand that it is, 
hopefully you would agree, Congressman, that it is advisable as 
we set up the agency for the next secretary to base the 
organization and the focus on the notion that once we bring bin 
Ladin to justice, and ultimately we will, there will be a 
follow-on, and that we are going to continue to have this 
challenge for a long, long time.
    The vulnerability assessment is also an important feature 
of and component of the new agencies. We all understand that 
about 90 percent of the critical infrastructure in this country 
is owned by the private sector. And it is securing information 
with regard to that vulnerability, some of which we would like 
to protect from a very limited exemption of the Freedom of 
Information Act, so that when we get credible threat 
information, and made an assessment with regard to its timing 
and direction and target and what have you, that we can take a 
look at whether or not it is potential target, was vulnerable, 
and then in a capacity that this country has never had, because 
of the rather historic way we are going to use this 
information, then recommend very specific protective measures 
to be deployed.
    So I think the threat assessment, those who have dealt with 
a--probably can talk to Congressman Barr a little bit about 
this, but I know you have dealt with it in the committees and 
in private briefings. There is an assessment that goes on a 
day-to-day basis, trying to sort through literally millions of 
pieces of information on a weekly basis.
    But we know ultimately where the threat is coming from, and 
we know the form that it would take, and we know the strategy 
and tactics are different. That is, we need in response to a 
21st century threat, a 21st century agency to deal with it.
    Mr. Shays. The most chilling testimony we had before our 
subcommittee was a doctor of a noted medical journal who 
concluded by saying, his biggest concern, that is a small group 
of scientists who will create an altered biological agent that 
when released, will literally cause the destruction of humanity 
as we know it, which clearly justifies our holding the 
countries accountable for the actions that take place in a 
country.
    And so the question I ask you is, is that a form of 
strategy, in other words, holding the countries accountable for 
the actions that take place? Is that a threat assessment, or is 
that a strategy response?
    Mr. Ridge. Well, I think you get much better clarification 
from the Secretary of State on that issue. But it is pretty 
clear to the administration that there are--state-sponsored 
support of terrorists is a reality that we have to deal with.
    And in terms of identifying the support, we know, in fact, 
that we would have reason to believe that the threat associated 
with Al Qaeda, the chemical, the biological, the radiological 
and the nuclear threat, whether or not it is related to 
directly to a state-sponsored effort or not, we also know that 
there is a potential of a radiological, chemical, nuclear or 
biological threat from state-sponsored terrorists.
    So whether the terrorism is sponsored by a state or 
sponsored by a terrorist organization that does not receive 
support from a sovereign, it is immaterial. We have to be 
prepared for any eventuality, whether it comes directly from a 
sovereign or indirectly through a terrorist agent, or from a 
terrorist organization acting independently itself.
    Mr. Shays. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. Governor 
Ridge, all of us agree that we need to streamline government 
and increase coordination. In your written testimony, you 
addressed this point saying that the new department would 
improve security without growing government. I want to ask you 
about this. The objective is not to grow government, but the 
bill you have proposed includes 21 deputy, under, and assistant 
secretaries. This is more than double the number of deputy and 
assistant secretaries in Health and Human Services, which 
administers a budget that is 3 times bigger than the budget we 
expect for this agency.
    If the objective is not to grow government, why does the 
new department need so many deputy and assistant secretaries?
    Mr. Ridge. One of the challenges we have, Congressman, is 
to make sure that we organize this in the most effective way 
possible. And I think in developing a mission-driven, 
performance-driven organization, and we believe that with your 
support, we can get one of those set up down the road, that we 
can fill these positions conceivably from among the 170,000 
people that would become a part of this organization.
    But we are going to need some internal leadership. We may 
need to make some changes, and at least those positions give 
the new secretary some flexibility as to where to deploy them. 
It has been admitted, and I think acknowledged by many of the 
Members of Congress, that some of those agencies are in need of 
reform and of change, and maybe perhaps additional leadership. 
And that would at least--those few members in comparison to the 
170,000 would at least give the new secretary the opportunity 
to implement some significant changes if he or she see fits.
    Mr. Waxman. Here is my concern. I think the reason that so 
much bureaucracy must be created is that the new department 
doesn't consider, have a clear enough focus. You say the 
mission is to protect homeland security. But the proposal would 
transfer into this new department many agencies that eradicate 
boll weevils from cotton crops, that issue flood insurance to 
home owners that live along the Mississippi River and clean up 
oil spills from our waterway.
    I want a new homeland security agency, but I want it 
focused on our homeland security needs. Let me ask you about 
that. On October 8th when President Bush created your position, 
he issued an Executive order. And Section 1 of that order 
established your office. And then Section 2 said, that your 
core mission was to develop and implement the coordination of a 
comprehensive national strategy to secure the United States 
from terrorist threats or attacks.
    Now, according to President Bush, developing this national 
strategy is your No. 1 job. But, Congress hasn't received it 
yet. Why not?
    Mr. Ridge. Well, you also, since you are familiar with the 
Executive order, you know that there was no timeframe 
specifically directed by the President. And I volunteered 
publicly some time ago that I would like to get that strategy 
before the President by mid year, sometime in July.
    Mr. Waxman. Isn't this backward, though? We are going to 
get the strategy after we reorganize? It seems to me that if 
you don't have a strategy, we don't have the priorities set 
forth in a clear way and we can't gauge whether the 
reorganization proposals best serve the Nation's security.
    As you know, several esteemed commissions have looked at 
the whole idea of homeland security, and they have said that we 
should start with the strategy, and then let that drive 
reorganization decisions, not the other way around. In the June 
15th edition of the National Journal, John R. Brinkerhoff, who 
is the Civil Defense Director at FEMA under President Reagan, 
said, ``the Bush Administration is doing the wrong thing for 
the wrong reasons. What worries me is that we put the cart 
before the horse. We are organizing, then we are going to 
figure out what to do.''
    I wouldn't go as far as Dr. Brickerhoff went. Because I 
think reorganization is needed. But I think it is vital for 
Congress to review your national strategy at the same time as 
we consider how to reorganize the government. Setting forth a 
strategy that lays out clear and specific goals, objectives, 
definitions and performance measures, is an important part of 
how we are going to plan reorganization.
    Mr. Ridge. Congressman, the question would imply, although 
I realize it is not your implication, that we have just started 
to work on the strategy subsequent to the President's 
announcement of the Department--of his proposal for homeland 
security.
    Mr. Waxman. I didn't mean that. But Congress is being asked 
to reorganize without receiving your strategy report.
    Mr. Ridge. But, in fact, the strategy and pieces of the 
strategy have been emerging, have been shared with Congress, 
not in a complete document, which we are in the process of 
completing, but ever since the President sent up his 2003 
budget initiative, and the centerpiece of that strategy, as I 
reiterate is the Department of Homeland Security, that has very 
clear missions.
    The first mission is to create a new capacity, not to deal 
with information, to integrate all of the information from the 
intelligence community, map it against the vulnerabilities out 
there, and give specific definition to the particular target. 
We have never had it before. That comes under the category of 
prevention, which is at the heart of the strategy.
    Intelligence fusion and sharing is very much a part of the 
strategy, and it is also reflected in part of the budget 
proposal that the President made when he submitted it in 2003, 
so you can track that. Clearly pushing our borders out. If you 
are interested in a homeland strategy and homeland security, 
you know that you want to interdict either the terrorists or 
weapons of terror before they enter the United States.
    Again, border consolidation. This was a piece of the 
President's 2003 budget. You see that seam, moves into the 
President's initiative here, and you will see the underpinnings 
in the national strategy as we develop it here in the next 
couple of weeks. Clearly, from prevention to reducing 
vulnerabilities, Congressman, we also say that we need to have 
stronger relationships with the public and private sector. That 
was part of the Executive order, part of the strategy.
    And that is why you see the requests in the supplemental as 
well as in the President's 2003 budget to create a much 
stronger, most robust direct relationship with the States and 
the locals and the first responders. And so I think I can take 
you through the President's budget proposal in 2003, and show 
you how it ties into this, the reorganization which is very 
much part of the strategy.
    So it is in pieces of the strategy, the underpinnings have 
been out there. We will give it in a more complete document in 
a couple of weeks.
    But you see the strategy, it is to prevent in the new 
agency working with a reformed CIA and the FBI, taking the 
threat assessment, matching it against vulnerabilities, then 
doing something actionable is very much a part of it. Securing 
our borders, pushing that perimeter out as we want to do, is 
very much a part of it, and go through the rest of the litany. 
But you can see, sir, that in the President's budget, and in 
the reorganization, I think you have a pretty good idea of what 
the strategy is.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. I would like to pursue a 
little bit the function aspects. I think you have got an 
excellent theme through there where have you got deputy, under 
secretaries. Because, when you look at this tremendous amount 
of data that are going from the agencies, and a lot of them are 
going to say, gee, I want to bring teacher a real thing, so 
they sort of huff it on their desk and wait and wait and wait.
    And I wonder the thinking you have given to an emergency 
desk run by the deputy secretary overall. Because, the 
secretary, whether it is you or anybody else, we all know they 
have to go around the Nation and meet various groups, such as 
the health departments and all of the enforcement of law and so 
forth. And all of that gets clogged up and clogged up as we get 
through the data. And the CIA's role originally was pull all of 
the intelligence in the whole executive branch and report to 
the President of the United States.
    That hasn't worked that way. And we have here a number of 
things that go directly to the Defense Department. And that is 
the reconnaissance group, that office, the NSA, a number of 
them.
    And it might be worthwhile to at least cleanse that out so 
the secretary, although he has got plenty to do, and the 
question with all of these Embassies, we have got FBI, CIA, 
Commerce, everybody has got an attache there. And a lot of that 
will trickle through. And the question is, how do you get what 
is really needed where you and your people know to make a 
decision and a recommendation to the President?
    Mr. Ridge. Congressman, with your support, with 
congressional support of this legislation, by statute, the CIA 
and the FBI will be compelled by statute to provide their 
reports and their assessments and their analytical work 
products to the Department of Homeland Security, which will 
have the opportunity to review it, make their own independent 
judgments. They may agree or disagree with the analysis, and 
they may, in fact, seek additional information and go back to 
the President and request that they even have access to the raw 
data upon which either one of the other agencies drew their 
conclusions.
    So what we are developing here is not only a new capacity 
to match the threats with vulnerabilities and then direct 
protective measures, but we are also developing another 
analytical point where other trained professionals can review 
the same information and determine--and see whether or not they 
reach the same conclusions, which I think enhances our ability 
as a country to protect ourselves.
    Mr. Horn. And I am glad you, the IG, in your necessarily 
special group. That really runs the city, in terms of the 
department. And I think I have found over the years here that 
could be a good hand for the secretary.
    Mr. Ridge. I wanted to make one other point if I might, 
Congressman. The collection process, the President feels very 
strongly, and I can't reiterate this enough, that the two 
agencies that would be providing information to the new 
Department of Homeland Security have made internal reforms 
which he supports, now collaborating and cooperating, I think, 
in an unprecedented fashion.
    Clearly, one of the challenges is to make sure over the 
long term it is not only between the principals that do it on a 
day-to-day basis, and the agencies that are doing it now, but 
to make sure that it is done in the future. I know there 
continue to be concerns about the CIA and the FBI.
    And if there are to be reforms of those organizations, 
depending on the conclusions that are reached after the 
hearings are concluded, that would certainly be within the 
province of the Congress of the United States to make those 
recommendations and legislate those proposals.
    But whatever they did to improve the capacity of those 
agencies would improve the work product that would be available 
to the Department of Homeland Security. But the President feels 
very strongly FBI needs to be maintained as an integral part of 
the Office of the Attorney General, the chief law enforcement 
official in this country, and very strongly that D.C. should 
report to one member of the executive branch, and that is the 
commander-in-chief, the President of the United States.
    Mr. Horn. Thank you.
    Mr. Burton. The gentleman from Massachusetts, Mr. Tierney 
is recognized for 5 minutes.
    Mr. Tierney. Governor, I want to revisit an issue with you, 
just because I think we may be talking past each other here on 
the panel. When we talk about your having a threat and risk 
assessment, I think generally everybody understands that 
homeland security is a need, and that we have threats out 
there.
    But the idea of having a threat risk assessment is to 
identify with specificity what are the threats, identify them, 
which one is more severe, where are we going to allocate our 
resources. As we break into these different departments, who is 
going to get more money than another? Who is going to get more 
people than another? You know, is a chemical threat more than a 
biological threat? Is something coming in by ship greater than 
coming in by plane. That kind of threat assessment is the one 
that the Hart-Rudman report indicated was a necessary first 
step, that the Gilmore report very strongly indicated was a 
first step, Rand and Brookings have each done an assessment on 
that and identified the threats and prioritized them, shape 
them up once against the other and put them in there. That 
helps us make the policy.
    I don't think that you probably could have gotten as far as 
you have gone and made this proposal, the President making his 
proposal without having had that done somewhere. We'd certainly 
be expected to act on this, as policymakers and people that 
provide for the resources without having that. So would you 
revisit that a moment for me. Tell me where are you on that 
kind of a threat and risk assessment, and are we going to have 
that before we are in a position of making decisions as to who 
is going in what department and what their resources are going 
to be in terms of allocation?
    Mr. Ridge. Congressman, again, I want to distinguish 
between the overall threat assessment, which I believe we all 
appreciate and understand.
    Mr. Tierney. Excuse me for a second. That is very broad. We 
can't have everybody taking the worst case scenario and doing 
our planning on that. Because we don't have those kind of 
resources, even if we wanted to have them.
    Mr. Ridge. I am going to try to get to that in a minute 
because you are right. The predicate is that terrorists could 
use biological, chemical, radiological or nuclear weapons. That 
the terrorists could take a look at vulnerabilities in this 
country, and turn them into targets and cause and inflict 
enormous catastrophic damage, both personal and economic.
    So we know generally what the threat is. Depending on how 
discrete the information is, and how clear it is with regard to 
a particular threat, if we set up this new Department of 
Homeland Security with a kind of flexibility that is--I think 
the President believes is necessary to create a capacity to 
respond to a discrete threat, but we don't have that capacity 
yet to do so, to match a threat with a vulnerability and to 
respond immediately. RPTS SMITH DCMN NORMAN
    I mean that goes at the very heart, the ability to identify 
a particular threat and to respond to it.
    Mr. Tierney. But I still think you are missing the point 
here. All of these other reports have indicated, quite clearly, 
that we certainly should have the ability now to make an 
assessment of what are the more likely of those threats and 
what are the more likely ways in which they are to be carried 
out. And in Rudman-Hart we thought that was important, Gilmore 
thought it was important, if the GAO thinks it is important and 
if, in fact, Brookings and Rand can do it, isn't that what we 
should be doing first, so that we can put this other umbrella 
thing together, we have at least a specificity of how many 
people are needed or resources are needed in a particular part 
of that, and then identify them to go right at the ones that 
have the highest priority, the ones that are most likely to 
occur?
    Mr. Ridge. Well, Senator, I don't think that any--excuse 
me. I got you promoted.
    Mr. Tierney. I appreciate the promotion. I know a couple 
guys in Massachusetts might not.
    Mr. Ridge. I don't know if that's an aspiration of yours or 
not. The Department of Homeland Security is designed to deal 
with both the general and the specifics. The information 
analysis piece, depending on the information you get in, can 
help us direct resources to deal with an immediate threat. The 
consolidation of the borders, we know that we want to keep 
terrorists out and terrorist weapons out. With regard to FEMA, 
we know that in the broad range of potential threats they come 
in a finite number of categories. And there are ways that you 
go about preparing for a nonspecific biological threat and a 
chemical threat and a radiological threat and a nuclear threat, 
so this is set up to deal with threats generally.
    Then depending on discrete information that we have about 
specific threats, you then have the capacity to go out and 
begin research immediately, because one of the units in the 
President's proposal gives us the ability to direct resources 
to research perhaps antidotes or vaccines for a specific kind 
of biological weapon that we believe is imminent, and can be 
used, will be used in the near future. So----
    Mr. Tierney. I appreciate that. But I think by way of--I 
know my time is out here. So I just--Coast Guard is one good 
example of that. Like how much of the Coast Guard should we put 
in this division? It has so many other responsibilities. And it 
would be helpful to know whether or not what we plan on using 
the Coast Guard for was a matter of the ultimate priority or 
somewhere further down the list, or a low priority, you know, 
as we determine; because they have so much to do with search 
and rescue, with fisheries management, with drug interdiction 
and with this. You know, how much money do we have to put in 
the Coast Guard? How big are we going to grow it, and where are 
we going to put these priorities in amongst themselves and then 
find out where in this chain of what you are talking about? I 
think that really would be helpful to us to have now, as 
opposed to after we do this legislation.
    Mr. Barr [presiding]. The time of the gentleman has 
expired. The gentleman from New York, Mr. Gilman, is recognized 
for 5 minutes.
    Mr. Gilman. Thank you, Mr. Chairman.
    Governor Ridge, at least one half of the foreign terrorist 
organizations have some links to the distribution of illicit 
drugs and the finances that they gain from them. These are 
terrorists organizations. What will the new Department do to 
ensure the DEA and other drug-related intelligence people will 
be incorporated into your system?
    Mr. Ridge. Congressman, I didn't hear the first part of 
your question. I apologize.
    Mr. Gilman. Sure. There are about one half the foreign 
terrorist organizations have some links to illicit drug 
distribution and the financing of their organizations from 
drugs. Can you tell us what the organization will do to try to 
bring DEA and some of that intelligence on drug-related 
transactions into your system?
    Mr. Ridge. Well, No. 1, Congressman, we recognize that this 
agency has its own source of information gathering. It does its 
own analytical work and is in the law enforcement business 
itself. And so gaining their records and their analysis into 
the Department of Homeland Security is, by statute, going to 
make us a partner from the get-go.
    Second, if we consolidate the agencies at the borders, INS, 
Customs, and the Coast Guard, and others that work with the DEA 
often on interdiction, it would be I think, frankly, a much 
stronger partnership if the DEA can work with one agency where 
there's a unitary command that says this is the relationship 
all of you must have, or we must develop a partnership with the 
DEA.
    So I think it really will improve significantly over time, 
the interaction and the collaboration, now that we have 
consolidated the agencies that they have dealt with perhaps on 
an ad hoc basis into one department.
    Mr. Gilman. That is encouraging. Governor Ridge, the Indian 
Point Nuclear Power Plant is located in my area. It is along 
the shores of the Hudson River. It is less than 30 miles 
outside of Metropolitan New York City. It is in the heart of 
almost 20 million people.
    Following the brutal attacks of September 11th, a number of 
questions and concerns have been raised by our people about the 
safety, the emergency preparedness, and the security of that 
plant. And in our efforts to assure the public of the safety of 
that facility and to increase measures defending the plant and 
to ensure emergency preparedness, to protect the public, we 
have been confronted with some resistance and unanswered 
questions from FEMA and from the Nuclear Regulatory Commission.
    With FEMA being brought into your new Department, what role 
would the new Department of Homeland Security play in emergency 
preparedness around our nuclear facilities? And would any of 
FEMA's policies be changed as a result of that? The Nuclear 
Regulatory Commission is responsible for determining the 
physical protection requirements of nuclear power plants, and 
in response to September 11th the NRC established a new Office 
of Nuclear Security and Incident Response. Will this 
responsibility for defending our nuclear power plants and this 
new office be transferred to your new Department of Homeland 
Security?
    Mr. Ridge. Interestingly enough, Congressman, you identify 
a point of vulnerability that has been much on the minds of 
Members and Senators who have nuclear facilities in their 
jurisdictions. And depending on what aspect of security 
prevention involved with a nuclear power plant, you might have 
the Department of Energy, you might have FEMA, you might have 
the Nuclear Regulatory Commission, or in fact you might even 
have the State involved.
    And it is pretty clear that under the new Department of 
Homeland Security, the continued responsibility of the Nuclear 
Regulatory Commission to oversee the physical requirements, the 
licensing requirements of the nuclear facility, will continue 
to exist and should continue to exist. But I think that the 
confusion that might otherwise arise as to who does what at the 
time of an incident or prior to an incident, whether it is 
FEMA, whether it is the NRC or it is the Department of Energy, 
will be resolved. You have one place that will coordinate with 
the appropriate roles of all the agencies, but the continued 
licensing and oversight of the security will be with the 
Nuclear Regulatory Commission, but at this instance, in 
conjunction with the Department of Homeland Security.
    Because, again, they have the responsibility to deal with 
not only threats but critical infrastructure, and obviously the 
nuclear power plants are an integral part of the critical 
infrastructure. And so the relationship will be much more 
direct; and I think, I would hope, I believe, much more 
effective.
    Mr. Gilman. So you will be coordinating that kind of 
security.
    Mr. Ridge. The new Secretary in the new Cabinet position, 
will have both the responsibility to do it and, frankly, be in 
a better position to do it; because, again, part of the task of 
the new Department is to assess critical vulnerabilities, look 
at the critical infrastructure. The energy component of our 
economy is clearly in that category, and they will be 
responsible for matching threats that--we have heard a lot 
about threats potentially to our nuclear facilities with that 
vulnerability, and then working with the NRC or the community 
or whomever to deal with that threat.
    Mr. Gilman. Thank you very much. Thank you, Mr. Chairman.
    Mr. Barr. The time of the gentleman has expired. The 
gentleman from Maine, Mr. Allen, is recognized for 5 minutes.
    Mr. Allen. Thank you. Thank you, Mr. Chairman, and thank 
you, Governor Ridge, for spending so much time with us this 
afternoon.
    In my opening statement, I mentioned the issue of making 
sure that information flowed vertically between the new 
Department of Homeland Security and State and local officials, 
that those lines of communication worked well. And I want to 
ask you to elaborate on that.
    I want to mention one other thing in that context. The 
experience over the last few months from people in Maine is 
that when funds flow through an established channel, as they do 
through FEMA, that works very well. When they flow through a 
new channel, the Department of Justice, there are more and more 
issues and problems, and certainly the people in the Maine 
Emergency Management Agency prefer that FEMA channel. They 
think that FEMA really knows how to work with State and local 
officials in a productive way.
    And so I just wanted to make that point, and then really 
ask two things. How do you envision the lines of communication 
between the new Department and State and local officials 
working? I mean, I know we are all going to talk about 
consultation and collaboration and so on.
    And the second question is--particularly smaller rural 
States are faced with developing plans for the kinds of 
catastrophes that we didn't really expect before. And so the 
second question is: Will there be in this new Department a 
group who can provide the kinds of technical assistance to 
smaller States to develop response plans for these 
catastrophes, really, that haven't been certainly right on the 
front of the planning agenda in the past?
    Mr. Ridge. First of all, the point about vertical sharing 
of information I think is critical to our national effort to 
secure the homeland. We have 650,000 to 700,000 State and local 
police and law enforcement. They want to be engaged. They are 
engaged from time to time as members of the FBI joint terrorism 
task forces. But at some point in time, as we develop the 
capacity to share sensitive information under appropriate 
circumstances with them, they become additional soldiers in our 
effort. And I think that is certainly the direction that both 
the Congress and the President, under the right circumstances, 
want us to move.
    I notice that your colleagues Saxby Chambliss, and Jane 
Harman have an information sharing initiative that takes the 
information we get in the Federal Government, under appropriate 
circumstances, shares it with local and State law enforcement, 
and I think that is--I think the administration has been 
working with them and supportive of that proposal.
    With regard to FEMA, in my capacity as Assistant to the 
President on Homeland Security, we have set up fairly routine 
phone calls with Governors and mayors, because again it is a 
national effort, and we have to engage and develop partnerships 
with the States and local communities. And if I heard it once 
in these phone calls or when I have attended their events, I 
have heard it dozens of times: We would like to go to one place 
to access dollars to help with preparedness planning, to help 
us with the acquisition of equipment, to help pay for training 
and exercises.
    And one of the reasons that we have put FEMA into--the 
President has put FEMA into the new agency is to make it a one-
stop shop. We take the grants from the Department of Justice, 
the grants from Health and Human Services, the grants from 
FEMA, we would aggregate them into one.
    Director Albaugh informed me the other day that he received 
nearly 700 responses to an inquiry that he made with the States 
and the local governments as to what you would expect the kind 
of technical assistance, how do you want us to help you frame 
your planning for a terrorist event?
    I would tell you that in the supplemental, there is $175 
million that the President has requested to give to the States 
and the local governments so they can begin doing the kind of 
planning that you are talking about, the small and rural 
communities and States, to develop mutual aid PACs, to develop 
national capacity. And that $175 million is to be expended for 
planning in anticipation of some significant level of support 
from Congress of the President's initiative in his 2003 budget 
where there is $3.5 billion for first responders.
    It would be nice to distribute it according to plans, 
statewide plans that involve mutual aid, exercises and drills, 
and the like. So, again, the notion of a one-stop shop is 
embodied in the President's initiative. Mayors and others would 
like to go to one government agency to get the kind of 
technical support and financial support that you are talking 
about. The President provides that in his plan.
    Mr. Barr. The time of the gentleman is expired. The 
gentleman from Virginia, Mr. Schrock, is recognized for 5 
minutes.
    Mr. Schrock. Thank you, Mr. Chairman. Governor, as I 
alluded to earlier, in April I sponsored a seaport security and 
force protection workshop, in conjunction with the U.S. Navy, 
and I have found that recurring problems they faced in 
providing port security were the problems of information 
sharing.
    Other than organizational structures and the Federal laws 
preventing information sharing, one other major obstacle to the 
timely transfer of information between agencies was the lack of 
interoperability of the data bases, communications networks, 
and information gathering systems between the agencies. 
Reorganization, I don't think, will solve this problem of 
interoperability. What do you foresee in the near term as a 
possible solution to the lack of interoperability, and what 
would you recommend would be a long-term solution?
    Mr. Ridge. Congressman, the heart of much of what the 
President seeks to accomplish with his initiative is based upon 
the ability of the appropriate agencies to share information, 
not just the CIA and the FBI with the Department of Homeland 
Security, but INS and Customs and Coast Guard and DEA and 
everybody else, to share it with each other.
    We noted with an initial look at the information technology 
budgets of the agencies that would be fused at the borders, 
that there is an anticipation of well in excess of $1 billion 
that is out there potentially to be invested in IT.
    It is my sense and my understanding that what has happened 
in many of these agencies over the years is they get more money 
for information technology, but they layer the systems, but 
they don't connect them. And by giving the new Cabinet 
Secretary some flexibility with regard to procurement and the 
transfer of funds, I would suspect that the new Secretary would 
want to make this one of the highest priorities, because it has 
also been one of the Congress's highest priorities, and it 
hasn't been done.
    I mean, Congress asked 6 years ago, it directed the INS to 
come up with an exit monitoring system, and the President wants 
an entry-exit monitoring system, and the only way we are going 
to be able to do that is to integrate the data bases and deploy 
some IT more effectively than it is been deployed before.
    So I think the new Cabinet Secretary has got a lot of work 
to do, not only to meet congressional mandates which are 
longstanding, but also to improve the information flow between 
the consolidated agencies or among the consolidated agencies.
    Mr. Schrock. Well, if this thing is going to work, those 
barriers simply have to be broken down. And we understand there 
are laws that prevent some agencies from sharing. And I guess 
we are going to have to do something about that.
    Mr. Ridge. Well, I am glad you raised that issue because 
there are some legal obstacles to that sharing, and there is 
some concern and criticism of stovepipes; that, in fact, one of 
the reasons that some of the stovepipes exist is because there 
are impediments, legal impediments to the sharing of certain 
kinds of information. So, again, we have to be careful under 
what circumstance is it done, but obviously the new Secretary 
would look to the Congress to try to make it easier to share 
information.
    Mr. Schrock. Sure. Let me go back to port security for a 
minute. How do you foresee this new agency working with State 
agencies to ensure port security?
    Mr. Ridge. It is been my experience, working with the Coast 
Guard with regard to issues of port security, that under 
Admiral Loy, and now under Admiral Collins, that there had been 
extraordinary outreach to the State and local authorities that 
had responsibility for port security. And my best guess, and I 
think very appropriate, the new Secretary would build on that 
foundation that the Coast Guard has already established.
    Again, you get back to the even more basic issue, the 
multitasking of the Coast Guard, as we do other agencies. Forty 
were multitasked before the President's initiative brought them 
under the Department of Homeland Security. The Coast Guard was 
tasked with many things before under the Department of 
Transportation. Admittedly there is an enhanced responsibility 
for port security, but in recognition of that enhanced 
responsibility, the President in the 2003 budget has given the 
Coast Guard the largest increase they have ever received so 
they can attract new personnel and acquire more equipment.
    Mr. Schrock. You are absolutely right. They have been 
overburdened with what they have to deal with, and I think 
Admiral Loy was the first Commandant to finally say, ``Stop. 
Enough is enough.'' And I think what the President has done in 
increasing the budget is good. But I think that is a start and 
they are probably going to take on a more critical role than 
they have had before, and we need to understand that and start 
pouring more resources into the Coast Guard.
    Mr. Ridge. Well, you know--and I am glad you raised that, 
because I visited with the Coast Guard for an afternoon down in 
New Orleans. And it is not just the port, but obviously there 
are certain areas of this country that you have got chemical 
facilities and energy facilities. I mean, the ports are 
vulnerable not just because it is an ingress and egress for 
people and cargo, but more often than not around our ports in 
this country, we have critical infrastructure that are 
potentially vulnerable. And we need the Coast Guard to be 
involved there with the assessment of the vulnerability and 
helping them determine what kind of protective measures they 
need to take. So they are very engaged at the port for a 
variety of reasons.
    Mr. Schrock. Thank you, Governor. Thank you, Mr. Chairman.
    Mr. Barr. The gentlelady from Illinois, Ms. Schakowsky, is 
recognized for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Governor, the Nuclear Regulatory Commission made an offer 
to provide potassium iodide pills free of charge to States 
with--for people within a certain range around nuclear 
facilities. Under the NRC proposal, States can obtain enough 
potassium iodide to provide pills to each person within 10 
miles of a nuclear reactor. Many States, I think it is now 16 
States, have taken the NRC up on that that offer.
    What I am asking is if in your opinion as Director of the 
White House Office of Homeland Security, do you agree with the 
President of the United States that it is in the best interest 
of those living within 10 or 20 miles of nuclear energy 
facilities to have potassium iodide readily available for use 
in case of a nuclear emergency?
    Mr. Ridge. I think the decision was made, very 
appropriately, by the Nuclear Regulatory Commission to work 
with the States to make it available for distribution to the 
States. We have got to work in partnership with the States.
    You raise an interesting question. The NRC has a 
responsibility so distribute it around nuclear power 
facilities. The Department of Energy has technically the 
responsibility to distribute and work with the States if it is 
a nuclear weapons facility or storage facility. FEMA has the 
responsibility to distribute it outside the 10-mile limit, and 
we have got to bring some rationalization to that process.
    But, again, the notion of prevention and working with the 
States, as we said, as we define protective measures and make 
available----
    Ms. Schakowsky. So do you think it is a good idea for 
States, in one way or another, to make the potassium iodide 
available to----
    Mr. Ridge. Well, there has been so much--there have been so 
many public expressions of concern about nuclear facilities, 
and I think there is a consensus that making it available to 
the States for distribution will hopefully eliminate some of 
the concern. Again, we had the discussion with Congressman 
Tierney about threat and risk. I mean, some are low 
probability, high consequence. Some are high probability, low 
consequence. And it is a very complicated pattern and matrix 
that you have to work through.
    But whether it is low or high probability, making these 
available--and we think it is a low probability--but making 
this potassium iodide available, it is a good way to begin 
partnering with the State and local governments to give a 
little more assurance and provide some protection to citizens.
    Ms. Schakowsky. All right. Let me ask you a question on 
another subject. Given this new Department, will that 
centralize the spokesperson role in terms of articulating 
threat? We just had a situation where Jose Padilla, who 
apparently was from my State, at one point anyway, was depicted 
by the Attorney General as--it seemed as if--on the verge of 
releasing a dirty bomb in the United States.
    And what I am wondering is, will threat assessments and 
warnings, etc., be centralized in a way that can give people 
assurance that there will be some accuracy, one, and 
consistency two? You know, when the Attorney General made his 
statements, which seem to have been trimmed back, the stock 
market fell, there were all kinds of repercussions to that 
statement, and I am wondering if we will have a more orderly 
procedure and a single spokesperson making those kinds of 
announcements.
    Mr. Ridge. The Attorney General will continue to be the 
administration's spokesperson with regard to his law 
enforcement responsibilities. But the new Secretary of the 
Department of Homeland Security will have the responsibility 
transferred from the Attorney General to the new Department to 
monitor and make announcements with regard to the national 
threat advisory system that has been deployed, and so you will 
have that transfer of responsibility.
    You recall a couple of months ago, it was announced that we 
were having--there was a color-coded threat advisory system 
which was the subject of quite a few political cartoonists. And 
I happen to think that humor is a good way to, from time to 
time, to get the message out that it is a serious threat and we 
need to keep America informed generally as to what is the 
opinion of the Intelligence Community as to the level of 
threat.
    What was often lost in that discussion of the color-coded 
threat advisory was that we were calling on organizations and 
companies and States to come up with accompanying protective 
measures, so that if the threat is at a certain level, then the 
protective or precautionary measures you take are at a certain 
level. So that whole process will be transferred from the 
Attorney General's office to the new Department of Homeland 
Security.
    Mr. Barr. The time of the gentlelady has expired. The 
gentleman from Florida, Dr. Weldon is recognized for 5 minutes.
    Mr. Weldon. Governor Ridge, I thank you for your endurance. 
I understand you were over at the Senate all morning, and I 
realize the afternoon is getting late. But I did want to hear 
your comments regarding my concerns about the Office of 
Consular Affairs.
    Could you please enlighten me a little bit as to why the 
decision was made to leave that function within the Department 
of State? I feel very strongly that Consular Affairs should be 
under the purview of the Secretary of Homeland Security. I 
consider this a first-line defense, keeping terrorists out of 
the United States. I am anxious to hear your thoughts on this 
issue.
    We are considering having a subcommittee hearing to 
investigate this further. So, assuming we will not be able to 
fully discuss it just under the 5-minute rule here, please go 
ahead and give me your thoughts.
    Mr. Ridge. Dr. Weldon, we obviously took a look at that 
possibility and felt that the best way to deal with the issue 
of converting the priorities from the diplomatic function in 
the role that they play, to the security function, was to put 
the controlling legal authority with regard to visa policy in 
the new Department of Homeland Security. As you well know----
    Mr. Weldon. What if they are not getting the job done, 
Governor? You can't fire them if you are the Secretary of 
Homeland Security. You have to appeal to the Secretary of State 
to do something about the problems you are having in the 
Consular Affairs Office. I personally think control is your 
most effective tool for getting the job done.
    Mr. Ridge. Well, the language has been structured that the 
authority--and it is a controlling authority--goes from the 
Department of Homeland Security through the Secretary of State, 
mindful of the fact that these men and women, in addition to 
providing consular services that include issuance of visas but 
also serve the Secretary of State and perform other valuable 
functions as well. There was also a concern at this time that 
as the consular officers are configured in the personnel of the 
Department of State, this is a career path. This is something 
that they do as they continue to work with and through the 
Department of State, and for the time being, in order to take 
control of the visa issuing authority, it was determined that 
this is the best approach.
    Mr. Weldon. Well, I respectfully differ with the 
administration on this position. We are not about the business 
of protecting bureaucracies or--you know, this is about 
protecting the American people.
    And considering that, just to cite as an example, this visa 
express program is still ongoing in Saudia Arabia, which I find 
to be somewhat troubling that somebody can get a visa to come 
into the United States through a travel agent in Saudi Arabia. 
And I am actually disturbed to learn that the State Department 
actually uses the Consular Affairs Office as an entry-level 
position. I personally think that should be like a trained 
police officer or a trained investigator's position. I don't 
mean to keep interrupting.
    Mr. Ridge. I assure you the primary concern wasn't to 
protect a career path. The primary concern was, one, to divest 
controlling authority within the Department of Homeland 
Security. I mean ultimately to your question of accountability, 
if the service, if the performance was unacceptable, if we gave 
not only the authority to issue visas but controlled the 
logistics of how they were issued and whether or not the 
individuals were interviewed and under what circumstances they 
were extended a visa. But if there was a failure of 
performance, I guess ultimately the Secretary of the Department 
of Homeland Security could revoke the authority of the 
consulars to even issue the visas.
    So ultimately, there is a rather radical means with which 
we could deal with their inferior performance, and that would 
be it.
    Mr. Weldon. I am about to run out of time. There are a lot 
of other people who want to ask questions.
    Mr. Ridge. I would like to continue the discussion with you 
because it was something that we obviously discussed.
    Mr. Weldon. I think I am out of time.
    Mr. Ridge. So maybe we can do that privately.
    Mr. Weldon. Yes, I think we may actually have a 
subcommittee hearing to get into this issue in a little bit 
more detail. Again, thank you very much for your input and the 
work you are doing for the American people.
    Mr. Ridge. Thank you.
    Mr. Burton [presiding]. Mr. Clay.
    Mr. Clay. Thank you, Mr.--I thank the Chair.
    Governor Ridge, the central mission of the new Department 
of Homeland Security is to protect the American public from 
terrorism, to keep terrorists out of our borders. Will the 
Office of Homeland Security have the responsibility for 
classifying nations and/or individuals as terrorist threats? 
Just how will they?
    Mr. Ridge. That would not fall within the purview of the 
Department of Homeland Security.
    Mr. Clay. That will not come under the purview?
    Mr. Ridge. No, sir.
    Mr. Clay. So you won't have any recommendations to share 
with the State Department about that, or----
    Mr. Ridge. That is a unique function of the Department of 
State. The President's National Security Adviser is involved in 
that, Dr. Rice; potentially, the Secretary of Defense. But that 
designation historically is vested in other places, and 
certainly not to be invested in the Department of Homeland 
Security.
    Mr. Clay. And you believe that it should not come under 
your purview.
    Mr. Ridge. That is correct.
    Mr. Clay. Homeland Security.
    Mr. Ridge. The President believes it ought to stay where it 
is.
    Mr. Clay. OK. Would you--well, would you be able to make 
recommendations such as military action or other action as far 
as suspected terrorist nations or terrorists themselves? I 
mean, what role will you play in that scenario, or will you 
have a role; I mean, whoever the head of or Director of the 
Department of Homeland Security is?
    Mr. Ridge. The only conceivable input--because I believe 
the President very appropriately believes that this critical 
mission is delegated to other departments within the Federal 
Government--the only conceivable input might be that the 
Secretary would have might be as a member of the National 
Security Council, if the opinion was asked.
    The direct line of responsibility would not--and I would 
argue and agree with the President--should not in any way 
involve the new Department of Homeland Security.
    Mr. Clay. All right, thank you for that. I know you have 
had a long day and have been here about 4 hours, so I 
appreciate your coming.
    Mr. Ridge. You wait a long time to get your 5 minutes; you 
might want to try to use it.
    Mr. Clay. I appreciate your coming. Thank you very much.
    Mr. Burton. Your demeanor is amazing after all the saddle 
sores you must have today.
    Mr. Souder.
    Mr. Souder. Thank you very much. Governor, first I want to 
thank you for your driving effort to consolidate the 
technology, because clearly that is something that as been 
fairly chaotic, and that this agency can take a strong lead in.
    Mr. Ridge. I had a very good experience doing that as 
Governor of Pennsylvania. We spent a lot of time doing it. It 
took a while to get done. But if you have unitary command and 
if somebody is in charge, as the new Secretary of Homeland 
Security will be in charge, there won't be any collaboration or 
coordination necessary. The new Secretary and Under Secretary 
can say this is the architecture that we are going to employ, 
these are the data bases we are going to share, and you have 
got X amount of time to get it done. Next question.
    You know, that is something that I think that unitary 
command is really critical to the fusion of the information 
that is needed in this new agency, and I am sure the Secretary 
will use it.
    Mr. Souder. And that is what we have to have if we are 
going to find the contraband, if we are going to find the 
terrorists.
    I also wanted to make a brief comment, before a couple of 
questions, to followup on Congressman Weldon's point, again, 
that I found that the State Department objections to 
consolidation of the visa clearance process to be somewhere 
between lame and embarrassing. The same arguments that can be 
made on behalf of not consolidating that could also have been 
made on Treasury and regarding Customs and could be made by 
Transportation with regard to Coast Guard.
    In other words, you could be the final arbiter, but the 
people could still stay in their departments, and we can't let 
one agency have that waiver and not other agencies or we are 
going to have chaos in this Department.
    This predominantly is border security for catastrophic 
issues. You said clearly this agency needs to have the ``who,'' 
and I agree with that. And you can be assured that many of us 
in this committee are going to make a strong effort, which I 
assume will probably pass, to have this consolidated in this 
agency. The arguments that it would weaken Ambassadorial 
control, that it would be--are just silly. We have all been in 
different Embassies. We know there are DEA agents and others 
who work under the Ambassador, that there can be a unity of a 
command in the Embassy. But the Border Patrol, the Customs 
people and other people at the border have no reaction or 
ability to control who is coming through if the visa has been 
cleared on a foreign policy basis rather than an internal 
security basis. And to do that, there needs to be line control. 
And I understand that it wasn't in the administration's 
proposal, and that you have had those internal battles.
    But be assured that battle is going to occur here in the 
House again, and probably in the Senate, because those of us 
who have worked with border issues and overseas issues realize 
this is very vital.
    And let me ask the questions, and then if you want to 
respond to that with the other. I chair the Anti-Narcotics 
Committee and we are concerned, but I am an original cosponsor 
of this bill and I definitely support the unitary command. But 
I am concerned that there hasn't been much reference to the 
narcotics question in your statement or in the bill, and the 
Coast Guard is absolutely critical here because, as you know, 
from--as a former Governor of a Great Lakes State, the Coast 
Guard has search and rescue roles, fisheries roles, drug 
interdiction roles, and indeed with the chemical plants on the 
Great Lakes and in Philadelphia and in other places around the 
United States, they have become the border perimeter.
    But when we pull those boats into the border, that means 
they aren't down in the eastern Pacific where they have been. 
The critical drug interdiction place, the Caribbean Sea, 
becomes open water for narcotics traffic if we don't have that. 
And partly what you said in response to the DEA question is 
there would be one place to go. But unless we have an Assistant 
Secretary who consolidates and watches that inside this 
Department for Coast Guard and Customs, in fact there isn't one 
place to go, there are still multiple places.
    Inside the primary mission of the person in charge of this 
agency will be, properly, catastrophic terrorism; not the 
secondary terrorism that is on the streets every day with 
narcotics. And we need to make sure that this function isn't 
lost inside both, by giving adequate resources and by people 
clearly understanding that there needs to be a coordinated 
mission.
    And one other thing is the JIATF interagency task forces, 
east and west, have been very critical, have been managed by 
the Coast Guard, and I wondered whether you support them being 
in this agency as well.
    Mr. Ridge. I didn't hear the last part.
    Mr. Souder. The last part is the interagency task forces, 
where we pool the resources, have been under the Coast Guard on 
narcotics. And I wondered whether you support them being under 
the Homeland Security Department as well.
    So my questions are: How do you see the drug question, how 
do you see JIATF, and if you wanted to respond to consular 
affairs?
    Mr. Ridge. Let me see if I can. First of all, I hope you 
would agree that the fact that the President has vested in the 
Department of Homeland Security the legal authority to set 
these policies, that in and of itself has said that the 
emphasis for the Consular's Office has gone from a diplomatic 
mission to a security mission, because it will be the 
Department of Homeland Security that is setting the visa policy 
and everything associated with it, obviously effective through 
the Secretary of State and a couple of hundred consular offices 
out there. But by the very fact that the President is now 
saying this policy will be determined in the Department of 
Homeland Security means that the priorities have been 
converted.
    There has been a lot of criticism that it was diplomacy 
first, security second. But the President and you and everybody 
else feels that you have got to be concerned about both. But 
the priority is homeland security.
    Second, with regard to narcotics and the involvement of the 
DEA, I don't know if it was you that said earlier in one of the 
opening remarks that we have been under a chemical warfare 
attack for quite some time, and that is in the drug war. And 
unfortunately, we have had thousands of casualties because of 
it. And that is why your concern about making sure that the DEA 
has an opportunity to work in closer partnership with the new 
agency is critical to the success of both the DEA and the new 
agency, because as we are trying to interdict terrorists and 
weapons of terror--and as we know that one of the funding 
sources of terrorist activity happens to be the drug trade--the 
tremendous synergies and the mutual responsibilities of these 
new agencies working with DEA I think can advance working 
together.
    How the new Secretary would effect that coordination within 
the new Department, I just need--would be interesting, from our 
point of view, from someone that has been assigned by the 
President to work with the Congress to get this done. I just 
want to continue that conversation with you down the road, 
because clearly the consolidation makes it a better partner 
with the DEA. You want to make sure that it is done 
effectively. And I think we need to continue that conversation.
    Finally, the arrangement--you talked to the joint task 
forces--that they work on that is very much a part of what the 
Coast Guard does now. If I understand what you are talking 
about, a couple of your colleagues--Hal Rogers gave me a call 
the other day and said, you ought to see what they are doing 
down in Key West. They are doing a phenomenal job down there, 
and he is bringing some folks to talk to me about it next week.
    So I would think since it is part of the ongoing work of 
the Coast Guard, it continues to be part of their effort, even 
if they are in the new Department of Homeland Security. It is a 
good model, good practice. Apparently everybody that looked at 
it says it is very effective. Maybe our challenge is to 
replicate it elsewhere.
    Mr. Souder. OK, thank you very much.
    Mr. Burton. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Governor, I think I should congratulate you on what must be 
setting a new record for nonstop testimony to the House and the 
Senate. I don't know when you began.
    Mr. Ridge. There are records that I used to aspire to as a 
young person. I am not sure that was one. But I am happy to be 
setting a record of any kind, I guess.
    Ms. Norton. Well, you are a clear Marathon Man. Governor 
Ridge, there has been some emphasis put by the Congress and by 
the President on getting this done quickly. We are enslaved by 
symbols, so September 11th has been raised. But clearly, 
everybody wants to get it done without delay.
    We have a bill over here, the Lieberman-Thornberry bill, 
and one might imagine that one could simply--we are told, and 
you have said, that this bill is very similar to the 
President's bill, so one might imagine that we could tweak that 
bill or amend that bill and get our work done fairly quickly.
    I would like you to describe what you see as the chief 
differences between the Lieberman-Thornberry bill and the 
President's bill.
    Mr. Ridge. Well, first of all, you do notice quite a few of 
the components of that bill in the President's initiative. We 
do not have--it does not include in terms of the border 
consolidation piece, the Transportation Security 
Administration. That would need to be grafted.
    Ms. Norton. Because that wasn't in effect at the time.
    Mr. Ridge. Correct. That could be done. Candidly, I cannot 
tell you. I know FEMA is included in that measure, but whether 
or not it is the sole--whether it has been given primacy over 
preparedness and response. I do not know whether it is the 
single place where the States and the local governments can go 
to access the technical assistance and the resources to prepare 
for a terrorist attack. But that could be amended if it is not 
included.
    It does not contain, I think, the weapons of mass 
destruction countermeasures piece, as configured in the 
President's proposal, giving strategic direction to the 
research dollars, and the cyber security piece that is included 
in the President's--and it does not have the new capacity that 
the President would create within the new office, and that is 
the threats/intelligence action piece where the CIA and the FBI 
report, share their work product with the new agency, and then 
it uses it to identify potential targets and make 
recommendations as to what measures they need to take to 
protect themselves. But the key components, the fusion of some 
of the border agencies the inclusion of the Coast Guard and 
FEMA, very much like the Hart-Rudman proposal as well, are part 
of that.
    Ms. Norton. So it looks like it is a question of add-ons.
    Mr. Ridge. I think it is. And the other--obviously it does 
not have some of the management prerogatives that are in the 
President's initiative with regard to procurement and 
personnel.
    Ms. Norton. Well let's move to management prerogatives.
    Mr. Ridge. I always thought if I finally finished my 
remark, that you would probably begin the next question with 
it. I knew we were going to get there sooner or later.
    Ms. Norton. You are about moving people, not boxes.
    Mr. Ridge. Right.
    Ms. Norton. I mentioned a number of concerns, but I think 
chief among those would be the extraordinary flight from the 
Federal Government--we are seeing part of it--is age-related; 
that in the 1990's, of course, there was a real devolution of 
the government downward, and many people, indeed almost half of 
Federal employees, could leave now on early retirement or 
retire.
    I have indicated that when you stand on these protections, 
when you reorganize the government, the first thing people 
think about is this is the time to get out of the government. 
If we were having--well, let me put it this way. This committee 
was so concerned about this that there were joint meetings, and 
there was a joint hearing about this problem, the fact that so 
many of the people with the most experience in government and 
in whom we have invested most can now get out the government, 
start a new career, take their pension and go.
    I can't think of anything that would be more harmful to the 
consolidation than to have the people who know most about the 
agency leave, although I recognize that we will want many new 
people in some of these functions. So I am asking you whether 
you would be willing to work with us to clarify the protections 
that civil servants will have, or whether you don't consider 
this a serious problem.
    Mr. Ridge. Oh, I think we have a governmentwide problem. It 
is not just unique to a potential Department of Homeland 
Security. You have highlighted a problem that several Members 
of the House and Senate have been talking about for a couple of 
years now, and one that I just got a smattering when I was here 
as a Member of Congress and was on the Post Office and Civil 
Service Committee, because you could see the trend lines as to 
when a rather substantial portion of the men and women in the 
Federal Government were going to retire.
    And we know in the next 3 to 5 years we may lose anywhere 
from 30 to 40 percent, potentially, and to affect the 
Department of Homeland Security, and of course you want--they 
are good people, they work hard. You want to keep the 
experience there.
    And I would just say that the President's proposal doesn't 
mandate any change. It is looking for some flexibility, 
frankly, to give the new Secretary new authority or new ability 
to retain some of these people who may not----
    Ms. Norton. Mr. Ridge----
    Mr. Burton. The gentlelady's time has expired.
    Mr. Ridge. So I know it is very important to you and many 
of your constituents who work for these departments and 
agencies, and they have been working on Homeland Security 
issues for a long time.
    The first objective and the responsibility of the new 
Secretary is to protect the homeland, to defend America and its 
citizens. That is what a lot of these men and women have been 
doing as part of their day-to-day job as well. They come over 
with collective bargaining, as a collective bargaining unit. 
They come over with the protections. There is nothing 
proscriptive in the President's initiative, but it is an 
unprecedented threat, unprecedented time, and if you are 
putting up a new agency, I believe the President wants some 
flexibility to deal with personnel. And, of course, I would be 
willing to have that discussion with you.
    Mr. Burton. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. I would like to just for 
a moment pick up where you just left off, Governor, talking 
about flexibility and also, concomitantly, accountability. And 
I am a lot more interested in Homeland Security than job 
security, to be honest with you.
    We held a hearing, for example, down in Atlanta about 2 
months ago, and it was precipitated by an undercover GAO 
investigation of the state of security in Federal buildings in 
Atlanta, which has, as you know, one of the largest presences 
of Federal facilities and employees outside of the Washington, 
DC area.
    And over the course of a few days, these three undercover 
investigators--I think all three of them, if I am not mistaken, 
are former Secret Service. They were able to secure basically 
full access at any time of the day or night to every Federal 
building in Atlanta that they attempted to gain access to. In 
not one instance were the stories that they gave checked out. 
Had they been checked out one time, they would have been proved 
quickly and immediately to be false. Not one time were they 
required to go through a metal detector. Not one time were 
their bags checked. Not one time were they questioned. As a 
matter of fact, individual officers down there, when they saw 
them playing around with the keyboard, volunteered their 
security codes so that they could get in. I mean, just rampant 
insecurity.
    The point I think that struck Mr. LaTourette, who was at 
the hearing with me down in Atlanta, was we can spend all the 
money we want, all the money the taxpayers allow us to spend. 
We can have all of these elaborate security measures, but if 
the people on the ground don't care about what they are doing 
and they are not held accountable, i.e., fired if they allow 
something like this to happen, I think we are going to continue 
to have problems.
    One thing I would just urge you to do and your staff to do 
is look at that report that GAO issued. It just came out just a 
couple of months ago. The chairman and I are following up with 
GAO on that report.
    But I think we need to have some mechanism in place to make 
sure that there is accountability and that the President and 
the Secretary and those under him or her have the flexibility 
to make sure that the people on the ground are moved out of 
jobs very quickly if there is a security problem.
    The other question that I have for you--and again I would 
just urge you to look at that because we are going to be doing 
some followup also on that, I know it is a concern to you--has 
to do with Atlanta also, but from a more positive standpoint. 
And that is CDC. I know there are a lot of pieces of this 
mechanism that you all are still working on. Can you give us 
some idea--and I know you understand, as the President does, he 
has been down there to Atlanta to visit with CDC--the 
importance of CDC's role in maintaining and developing an 
overall public response to and a health response to an 
emergency situations.
    What is the role that you envision for CDC in the new 
Homeland Security Department structure?
    Mr. Ridge. Historically, the Center for Disease Control has 
really been at the heart of the national effort to deal with 
public disease, public health, and disease surveillance. And it 
will continue that mission. But with the strategic focus of the 
Department of Homeland Security and access to research dollars, 
I suspect that this infrastructure at the CDC will now be 
tasked to do research relative to biochemical weapons and the 
impact on human beings as well.
    So I think it is a piece of dual infrastructure. It has got 
a traditional mission dealing with public health. Secretary 
Thompson and the CDC have worked very hard over the past couple 
of years to set up a national disease surveillance network. But 
their laboratories and the expertise they have will be made 
available to the people of this country and have access to 
dollars under the new Department of Homeland Security.
    We set a strategic research and development program, and I 
suspect we are going to use the good people and the resources 
and the laboratories at CDC to expend those dollars to help us 
with terrorist-related research.
    Mr. Barr. Thank you. So would it be fair to say that the 
importance of these issues with which CDC has been dealing, 
particularly the emerging bioterrorism threats, for example, 
will be given very high priority, including CDC's role therein 
in the new departmental structure?
    Mr. Ridge. Congressman, that is a very fair statement. The 
new Department of Homeland Security and the President's 
initiative is not going to be about the business of building 
new laboratories and educating new scientists. There is a 
terrific infrastructure that we have across this country. You 
can start with CDC and NIH and some of the other federally 
directed programs, and the goal would be to task them with a 
specific direction based on a national strategy that is based 
on threat assessments. And so they would become part of the 
Homeland Security effort as it presently exists.
    Mr. Barr. Thank you, Governor.
    Mr. Burton. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman, and Governor.
    In New York we had trouble with agencies coordinating among 
their fellow agencies. And to give one example which was 
written about in the Wall Street Journal recently, the 
Environmental Protection Agency--it is called buck passing--
delayed EPA clean up in September 11th. It was 8 months after 
the disaster that it was determined by EPA that they indeed had 
the authority to test the air quality to clean up asbestos and 
to clean up the surrounding homes and buildings.
    First they said they didn't have the authority, that it was 
the city's authority. The city then said they didn't have the 
authority, it was the individual buildings and their residents. 
It was their responsibility to clean up. And then they finally 
decided, 8 months later, that in fact EPA had the authority to 
test the air quality and to work to clean up asbestos and the 
soot and everything in the surrounding areas. And I would like 
to put this article in the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.052
    
    [GRAPHIC] [TIFF OMITTED] 81325.053
    
    Mrs. Maloney. So my question is: What plans do you have to 
have a better coordination between the agencies? And very 
related to the experience that we had in New York was the 
inability of the city to respond to the tremendous need that 
victims and people had, the lack of resources and really the 
ability to respond. And FEMA did many wonderful things, but 
they were very slow in responding. Nine months after the 
disaster, after many reports came out from the city and 
independent sources, it was determined that mental health 
problems were indeed a huge problem in the public school 
system. They did give us a grant, but this was 9 months later. 
It would have been much more effective to have had it 
immediately thereafter.
    And most recently, FEMA will say, well, we are really 
concerned, we really want to reimburse the loss of 
instructional time for public education, but our guidelines are 
so restrictive we just really can't respond. And FEMA may be 
very appropriate for a natural disaster, but in many ways the 
way their guidelines are written, many of the unmet needs and 
unpaid bills have been disallowed for the September 11th 
experience in New York.
    And will you be reviewing FEMA's guidelines? They did 
respond to lost instructional time in other areas of the 
country, but denied it in New York because it was, ``too 
restrictive.''
    And what will you be doing in the Federal Government to be 
more responsive to the needs of victims and to really respond 
quicker and faster to the needs of the victims and the 
coordination of the agencies?
    Mr. Ridge. My conversations with Director Albaugh I believe 
is probably not--there aren't too many other people, with the 
exception of the congressional delegation in Washington, that 
have spent more time in New York trying to respond to that 
horrible tragedy. Director Albaugh I think was up there within 
hours. I think he has been there 50 or 60 times, and I mean for 
days at a time. FEMA set up within 24 hours its initial 
operation.
    Mrs. Maloney. Well, FEMA was there, and Director Albaugh 
met with us literally the next day. But I guess my question is 
about the EPA, if it took them 8 months to determine that they 
indeed had the authority to test the air quality to clean up 
asbestos. That is one example.
    Mr. Ridge. Under a new Department of Homeland Security, 
whose primary mission goes all the way from prevention to 
response, we hope and it would be our prayer that all the 
prevention efforts would be perfect and we would never have had 
to respond. But you also have to be realistic and understand 
that we can't create a guaranteed system or a fail-safe system, 
so part of the response mechanism has to be FEMA and their 
coordinating role.
    It would be much easier, under the Department of Homeland 
Security to answer that question a lot quicker, because now you 
have a Cabinet member whose primary responsibility goes from 
prevention to response. And I think that he or she will have 
the ability and the responsibility to get it done a lot 
quicker.
    To the extent that you worry about FEMA--and I understand 
very well the limitations, because as Governor of Pennsylvania, 
recognizing the limitations by statute, and the guidelines that 
are forthcoming because of statute, there are a couple of times 
where I wish I could have applied for disaster assistance, but 
was aware of the limitations on FEMA. They have to abide by the 
law themselves.
    And it is fairly prescriptive as to when they can involve 
themselves and spend in support financially the worthy, worthy 
causes and organizations you talked about. I mean, that may 
call for the Congress of the United States to take a look at 
FEMA's capacity to expand to some of these additional needs in 
light of their enhanced role with regard to terrorist activity.
    But they are fairly restrictive. They don't necessarily 
want to be. But they are a creature of statute and they do have 
to follow the law.
    Mr. Burton. The gentleman's time has expired.
    Ms. Watson.
    Ms. Watson. Again, thank you for your endurance. I am 
concerned about the transfer of nonsecurity functions. And let 
me give you an example. Your proposal would transfer animal, 
plant and health inspection services to the Department of 
Homeland Security.
    And this office is responsible for inspecting imports to 
make sure that pest and bugs that could harm livestock do not 
come into the United States. But your proposal would not 
transfer agencies that inspect food imported for human 
consumption. Now, I want to know why that is, it would remain 
with the USDA and HHS.
    And as you answer, also do we pick up the budget that 
addresses the responsibilities for the screening of bugs and 
pests? How do we work in terms of funding the responsibilities 
under this new Homeland Security Agency, and leaving some 
responsibilities back at USDA and HHS? There is some programs 
under FEMA that you transfer, and some that you do not. One 
that comes to mind is the Emergency Food and Shelter Program 
for Homeless People, those who are homeless now.
    So as you transfer these responsibilities under this new 
agency, as you leave some in place, does the money follow? Do 
the administrators come along with that? How is this going to 
work?
    Mr. Ridge. It is a very important question. And you have, I 
think, appropriately identified the answer. In fact, when we 
would take--when the President's initiative takes full 
departments, in this instance it would be Animal, Plant Health 
and Inspection Services from the Department of Agriculture, it 
takes both the border inspection function, and there are some 
synergies to the rest of the portfolio as well. I mean, 
identifying pest and pathogens that would affect animal and 
plant life in this country is a potential source of terrorists 
activities, something that we have to be mindful of.
    There are still another 12 agencies out there that have 
something to do with food safety. That was too much to pull 
into the Department. It might be subject to consideration of 
the Congress down the road. But the dollars would follow the 
agency. The calculation that this agency's budget for the year 
2003 is a little in excess of $37 billion, is premised on the 
dollars that are in that budget following the agencies that the 
President consolidates and reorganizes to create the new 
Department of Homeland Security.
    So when we brought over the entire agency department, we 
brought over the whole budget. If we brought over a piece of 
the agency or piece of the department, we brought that portion 
of the budget over. That is how we calculated roughly the 
budget of the new agencies, about $37 billion.
    Ms. Watson. Well, there is still going to be functions left 
behind that these departments have been taking care of. You are 
going to have the budget over here and the people over here, 
and you still have some of those responsibility back in the 
agency. You don't need to respond because these are some of the 
problems that are going to have to be worked out.
    I cannot understand at this point how the coordinated 
effort works. And I see this whole transfer of responsibilities 
under this new agency is to better coordinate the services and 
better coordinate the response to any kind of emergency, any 
kind of terrorist attack or whatever, and to protect this 
homeland. And I am not quite sure yet, I cannot put my finger 
on how this coordinated response is actually going to work.
    Mr. Ridge. If I might review just a couple of the units 
that would be in new Department of Homeland Security. FEMA, 
become the coordinator of all of the programs that presently 
exist within the Federal Government that help State and local 
communities buildup capacity to prepare for or respond to a 
terrorist event.
    Presently, there is an Office of Domestic Preparedness in 
the Department of Justice. There is Health and Human Services 
grants. So by consolidating, thereby coordinating that, we 
consolidate that activity and put it in FEMA.
    The border consolidation, I think there is some really 
dramatic examples of how we could get better utilize the 
personnel and technology and the resources available. At some 
portion of the border, the facilities are shared. At some 
portions of the border the facilities are separate.
    I remember going in to--coming back from Canada. And, the 
airport, INS had the first 50 feet, then there was a line and a 
piece of tape, that is where Customs took over. It just seems 
to me that if we can have a command authority over the borders 
that can better integrate assets and people and resources, the 
integration of those people and these resources will make us--
it is more effective at the border identifying potential 
terrorists and making sure that we keep those people who do us 
harm outside of the United States.
    Coordinating information for the first time, the President, 
in this initiative, sets up the capacity within a new 
department to get information from--not for the first time, the 
first time is where they get all of the information and then 
apply it to the vulnerabilities that we have in this country, 
and then make recommendations for definitive action, take 
protective measures. This is a threat, you are vulnerable, do 
this. Very prescriptive. We have never had that capacity 
before. That is also a very important coordination role.
    At the end of the day, having one agency primary focused is 
what I am sure you consider to be job one right now, that is 
securing America and citizens. The President considers that to 
be his job. I think brings enormous efficiencies, and someone 
who believes in command, in direct lines of communication and 
accountability, I think you can get things done a lot quicker.
    Mr. Burton. The gentlelady's time has expired.
    Ms. Watson. If you will indulge me for one half second. I 
just may say this. I thought that was going to be your job and 
your responsibility. I thought they brought you in to do that. 
And as I have been following the press, it looks like they are 
mentioning other names. That should be your job. And it is 
going to take a magnificent piece of strategy building in order 
to be able to bring all of these agencies, departments 
together, and answer to one authority. If you put it together, 
I think you ought to do it.
    Mr. Ridge. You can effect certain changes if you can 
coordinate them. As you can well imagine, you can effect 
certain changes if you command they be done. There are two 
different ways to effect change. Some are more effective than 
others.
    Mr. Burton. The gentlelady's has expired.
    Mr. LaTourette.
    Mr. LaTourette. Governor, a lot of us in northeastern Ohio 
thought you would have made a wonderful running mate for the 
President of the United States. We are obviously happy with our 
current Vice President.
    Mr. Ridge. You should be.
    Mr. LaTourette. When you were available and you could take 
this job as well. But following up on Ms. Watson's question, it 
is my understanding that the President's design not only has 
your current position maintained for his administration and 
future administrations, but also a secretary of homeland 
security. And the question I guess that a number of us are 
wondering since you have done such an outstanding job in this 
job, is that something that interests you or would you prefer 
to stay in your current post and advise the President?
    Mr. Ridge. Well, as of this morning, the President has 
given me a second responsibility in addition to his assistant 
for homeland security. Now, we are basically coordinating the 
outreach both to Congress and the transition. I have got two 
jobs now. There may be a time and a place to talk about future 
employment. But I am pretty busy right now and pretty content 
with what I am doing.
    Mr. LaTourette. I guess you are. First responders and FEMA. 
Very, very important. And I don't remember who was talking to 
you about potassium iodide tablets, Ms. Schakowsky and nuclear 
power plants. One of the jurisdictional squabbles that we have 
here and why I think that a number of us are delighted that 
everything is being consolidated is that in the President's 
budget submission, he had basically zeroed out the Office of 
Domestic Preparedness and the Department of Justice and asked 
for those responsibilities to be transferred over to FEMA in 
the form of first responder grants.
    Maybe by coincidence, your colleague from your former 
State, Kurt Weldon and others, led the fight to get money into 
the hands of the first responders. It was a good thing that 
FEMA had that sort of practice before September 11th, because 
they did, in my opinion, at least a masterful job.
    When we did the supplemental appropriation, however here in 
the House, the $175 million that was supposed to go to FEMA, 
wound up, because of a jurisdictional spat among committees 
here in the Office of Domestic Preparedness, in the Department 
of Justice, which isn't going to be an office anymore.
    My question is, if the Congress follows the President's 
blueprint and makes FEMA the preeminent agency, will the 
administration, you or the new secretary, the President of the 
United States, use its bully pulpit to make sure that money 
goes where the responsibilities go?
    Mr. Ridge. That is clearly the President's intent. And 
Congress can help ensure that it actually is resolved that way, 
that FEMA becomes the agency with primary responsibility to 
create an even stronger partnership with the States and locals 
in terms of preparedness and response.
    I want to put a plug in for the President's initiative in 
the supplemental. That $175 million is to be distributed to the 
State and local governments, as the President believes that 
partnership is critical.
    So that they can begin preparing State plans from the 
bottom up, however, you deal with the mayors and the county 
executives and the regions and the States. But prepare plans. 
And FEMA will give guidance and help frame the plans for the 
distribution of undoubtedly what will be a very substantial sum 
of money, once the budget process and the appropriation process 
is completed this year.
    The President's initiative in the 2003 is $3.5 billion. You 
can well imagine as a former Member of this body, I really 
appreciate that this will be a certain--this is going to be a 
paradigm shift in the sense that we have been working with the 
conference of mayors and league of cities who historically have 
come to Washington, very understandably and said, this is a 
grant program, and we want to apply for our own individual 
grants. We understand that. But when it comes to developing a 
national capacity to deal with terrorism, it is the President's 
belief that money should be distributed not on an ad hoc basis 
to his partners, to the partners in the Federal Government, but 
according to a plan. And for that reason, we are hopeful that 
the 175 million goes to FEMA.
    Frankly, I think the new secretary, and I don't think it 
is--pretty much envisioned that that ODP, good staff, good 
people, 70 or 80 people will be transferred over to FEMA to 
continue their work and have a bigger budget. If they pass that 
supplemental, that 175 goes to FEMA, they start working with 
the States and the local communities to develop plans so they 
can make immediate distribution once the 2003 budget is 
completed.
    Mr. LaTourette. You have just made my job a whole lot 
easier when the conference report comes back, because that is 
what we thought should have happened to the money. And some 
jurisdictional difficulties got in the way. The last thing on 
the $3.5 billion, this goes to nuclear power plants again. We 
talk a lot about security of nuclear power plants. But the 
first line of response when there is an accident, not even an 
act of terrorists, often falls on local fire departments.
    I have the Perry Nuclear Power plant in Perry, OH in my 
district.
    Mr. Ridge. Erie, PA is downwind 40 miles.
    Mr. LaTourette. We are going to try and keep it right in 
Perry. The electric utility doesn't get its license unless it 
has a mutual aid agreement for fire suppression with the local 
company. And that often puts a tremendous burden on the local 
taxpaying public that has to support the fire department in 
case of a catastrophic accident. And I would just ask you as my 
final question, has some thought been given to recognizing one, 
the 68 nuclear power plants as something we need to be 
concerned about; but, two, as we look at not only protection 
but also how to suppress fires and accidents and injuries. Has 
thought been given to aiding those fire services that are 
located at or near the nuclear power facilities in the country?
    Mr. Ridge. It seems to me, Congressman, that those 
communities that have those nuclear facilities, one, should 
have reasonable expectation that the private companies that own 
them will maximize their contribution to secure not only their 
investment, but they have invested in the neighborhood and 
communities and to ensure the safety of the citizens that live 
around the facilities. That is job one of those companies.
    But, No. 2, part of the reason that you develop--the 
President would like to see that money be distributed according 
to a plan, is that the needs will vary depending on the 
vulnerability and the potential problems associated with that 
kind of critical infrastructure.
    So, in fact, if the Ohio plan, looking at Ashtabula County 
and the Perry power plant, includes a need for certain kinds of 
equipment to be able to respond to an attack on that facility, 
that should be included as part of the capacity building in 
that plan. So, yes, I think there would be dollars available to 
address over time that need in your community and over 100 
others that have nuclear power facilities.
    Mr. Burton. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
And I guess it looks like I might be the wrap up person here. 
Governor, we have always prided ourselves in this country as 
being a government of the people, for the people, by the 
people, with the idea that the people would know what was going 
on.
    I am saying that is the only way that this can work. And if 
that is the case, then why is it necessary to exempt this 
agency from the Freedom of Information Act, when everybody else 
with the exception of the CIA and the Federal Reserve are 
covered?
    Mr. Ridge. First of all, I think you have raised a very 
important question. And it gives me an opportunity to clarify 
the FOIA exemption. It is a limited exception. It relates to 
the kind of information that the private sector would 
voluntarily provide the Federal Government with regard to the 
vulnerability of critical infrastructure.
    So it is a limited exemption. And as I have talked to other 
Members of Congress, and we have talked to the private sector, 
as some of your colleagues mentioned earlier today, that about 
90 percent of the critical infrastructure and potential targets 
are owned by the private sector. Based on experiences in our 
outreach to the private sector developing the national 
strategy, we found they are very reluctant and would be 
reluctant to share with the Federal Government proprietary 
information relating to the operation of their facility, maybe 
some of these things even give them a competitive advantage, 
unless that information was protected and only used by the 
Federal Government in order to help prevent or prepare for a 
terrorist attack.
    So you raise a very important question. I just want to make 
sure it is understood. It is not complete operation of the 
agency that has been exempt from the Freedom of Information 
Act.
    But it is a limited exception drawn to encourage the 
private sector to share some information with us about 
potential vulnerabilities. We don't want to give the terrorists 
a road map. We don't want to expose those vulnerabilities to 
the terrorist. That is the reason for the exemption.
    Mr. Davis of Illinois. I am certainly pleased to hear that 
answer. I am almost also having some difficulty understanding 
the necessity of establishing a new personnel system, 
especially since we are going to be transferring people out of 
the traditional Civil Service system that we have.
    Why will we need a new system or a different system than 
traditional Civil Service?
    Mr. Ridge. Congressman, first of all, the way the 
legislation is presently drafted, it is not prescriptive. It 
does not dictate that a new system should be developed. But as 
we would--the President tries to empower the new secretary of 
Homeland Security. To assist that secretary in the creation of 
an agency that can move people and resources around as quickly 
as possible to respond to unprecedented threats, even unknown 
threats that you and I can't even discuss today, because we 
don't know they exist.
    The notion that somewhere down the road they may need that 
flexibility drives the President to include it in this plan. We 
need a system. We have heard a lot of people talk about 
accountability. A flexible human resource plan can hold people 
accountable. People talking about rewarding performance. A new 
flexible system can help reward performance. There is a concern 
about keeping people in the agencies instead of retiring, 
personnel flexibility and pay flexibility would give them the 
possibility to do that.
    Mr. Davis of Illinois. Then would I be accurate if I 
suggested that maybe only categories of individuals may fall 
outside, and there are other individuals who might remain? And 
the rationale leads me to the last point that I want to inquire 
about. If there is wholesale movement, or if we change the 
protections, what are the plans to make sure that there is 
adequate focus on diversity as it relates to race, gender, and 
ethnicity so that we don't have to have something that we want 
to really protect.
    Mr. Ridge. Certainly your concern about diversity is well-
founded. And obviously there are prescriptive measures in 
statute that would direct us to continue to be concerned about 
making sure that the work force reflects the diversity of 
America. It is pretty clear that it does. I would just say to 
you, sir, that again, there is nothing prescriptive in this. It 
would be difficult, I mean it is pure speculation on my part to 
determine what a future secretary would do in light of what 
reorganization efforts that might be accomplished in light of--
we can't even speak today as to what new agencies may or may 
not be included in that.
    But I don't--I am not shying away from the notion that is 
part of the President's initiative. In an unprecedented time 
with an unprecedented threat, we are trying to create a 21st 
century Federal department that is far more agile and far more 
flexible, whose job No. 1 is protecting America, giving that 
secretary that kind of flexibility with procurement and 
personnel and resources, the President believes very strongly 
is the best way to maximize his or her ability to improve 
homeland security.
    Mr. Davis of Illinois. Thank you. Mr. Chairman and I 
certainly want to thank you, Governor, for your answers. And I 
would just end by saying, if we have to change I would hope 
that we would go forward and not backward in terms of 
protections. I thank you very much.
    Mr. Burton. You are not going to believe this but we are 
through with questioning. But we have one last comment from Mr. 
Shays.
    Mr. Shays. Mr. Chairman, I just wanted to say to you as 
someone who, with others here who have worked on this issue a 
long time, I think that the proposal that you put forth has 
simplicity and some brilliance to it. Because, you basically 
took the recommendations of the Commission, the recommendations 
of the four Members of Congress, and you were asked about how 
it differed. All four members who sponsored legislation have 
endorsed the plan you came up with because you managed to get 
100 percent jurisdiction of this issue of homeland security.
    In some cases direct responsibility, in other cases a plug 
in with intelligence. And I just--I know it is going to be 
worked on, and I know Members here are going to work their will 
on it. I know you are going to cooperate with that, as it 
happens. But I think it is truly a very fine piece. I just want 
to congratulate you.
    Mr. Burton. Well, Governor Ridge, let me, my old buddy, it 
is good to see you again.
    Mr. Ridge. We did it.
    Mr. Burton. I want to thank you so much for staying. You 
stayed way beyond what you anticipated. I really appreciate it. 
We have some written questions by some Members who had to 
leave.
    Mr. Ridge. Not surprised. We welcome them.
    Mr. Burton. Would you answer those for the record? With 
that, thank you very much for your patience. And look forward 
to seeing you again. We stand adjourned.
    [Whereupon, at 5:50 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Edolphus Towns follows:]
    [GRAPHIC] [TIFF OMITTED] 81325.054
    
                                   - 

</pre></body></html>
